<html>
<title> - PROSPECTS FOR DEMOCRACY IN YUGOSLAVIA</title>
<body><pre>[Senate Hearing 106-243]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-243


 
                  PROSPECTS FOR DEMOCRACY IN YUGOSLAVIA

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 29, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                      U.S. GOVERNMENT PRINTING OFFICE
 61-047 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                   GORDON H. SMITH, Oregon, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
JOHN ASHCROFT, Missouri              PAUL S. SARBANES, Maryland
PAUL COVERDELL, Georgia              CHRISTOPHER J. DODD, Connecticut
CHUCK HAGEL, Nebraska                PAUL D. WELLSTONE, Minnesota

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biserko, Ms. Sonja, chairperson, Helsinki Committee for Human 
  Rights in Serbia...............................................    24
    Prepared statement of........................................    26
Dobrijevic, Father Irinej, executive director, Office of External 
  Affairs, Serbian Orthodox Church...............................    33
    Prepared statement of........................................    36
Fox, John, director, Washington Office, Open Society Institute...    29
Gelbard, Hon. Robert S., Special Representative of the President 
  and the Secretary of State for Implementation of the Dayton 
  Peace Accords..................................................     3
    Prepared statement of........................................     7
Hooper, James R., executive director, Balkan Action Council......    39
    Prepared statement of........................................    43
Pardew, Hon. James W., Jr., Deputy Special Advisor to the 
  President and the Secretary of State for Kosovo and Dayton 
  Implementation.................................................    12
    Prepared statement of........................................    14

                                 (iii)


                 PROSPECTS FOR DEMOCRACY IN YUGOSLAVIA

                              ----------                              


                        THURSDAY, JULY 29, 1999

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:23 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Gordon Smith 
(chairman of the subcommittee) presiding.
    Present: Senators Smith and Biden.
    Senator Smith. Good afternoon, ladies and gentlemen. I 
apologize for our late beginning, but we are voting a lot 
today.
    But we convene this Subcommittee on European Affairs to 
discuss the prospects for democracy in Yugoslavia and what the 
United States can do to assist those in Serbia who seek to oust 
the dictatorial regime of Slobodan Milosevic. Our first panel 
consists of Ambassador Robert Gelbard, Special Representative 
of the President and the Secretary of State for implementation 
of the Dayton Peace Accords, and Ambassador James Pardew, 
Deputy Special Advisor to the President and the Secretary of 
State for Kosovo and Dayton Implementation.
    After we hear from administration representatives, the 
subcommittee will welcome Ms. Sonja Biserko--I apologize if my 
pronunciation is incorrect--chairperson of the Helsinki 
Committee for Human Rights in Serbia; Mr. James Hooper, 
executive director of the Balkan Action Council; Father Irinej 
Dobrijevic, executive director of the Office of External 
Affairs of the Serbian Orthodox Church here in the United 
States; Mr. John Fox, director of the Washington office at the 
Open Society Institute.
    This hearing, by the way, will be the first in a series by 
this subcommittee on United States policy in the Balkans. This 
afternoon we are going to focus specifically on what is 
happening in Serbia right now, as opposition parties are 
rallying their supporters to take to the streets against 
Milosevic, as army reservists are launching protests after 
their return from Kosovo, as the Serbian Orthodox Church has at 
least spoken out in favor of replacing the regime for the good 
of the Serbian people.
    In the fall, we will examine the course of political and 
diplomatic events that led to the NATO bombing in Kosovo, as 
well as the lessons the United States and our NATO allies can 
learn from the manner in which the war was waged. This has 
enormous implications for NATO and its future.
    In addition, I am pleased that Senator Rod Grams will 
convene a hearing in September to look into the response of 
UNHCR to the Kosovo Albanian refugee crisis. I agree with 
Senator Grams that assessing the performance, both positive and 
negative, of UNHCR can be useful if and when we are faced with 
another refugee explosion in the future.
    I appreciate the willingness of all our witnesses today to 
appear before the subcommittee, to share their thoughts and 
expertise on the prospects of democracy in Yugoslavia. We have 
an opportunity in Yugoslavia that we must not let pass. 
Milosevic has been weakened by the Serbian defeat in Kosovo and 
I feel that for the first time many average citizens of 
Yugoslavia have finally decided that they have had enough as 
well of his policies of repression and destruction.
    He is now vulnerable. But as we all know, he has managed to 
be in vulnerable positions before, always managing to 
outmaneuver his opponents. He seems to be able to divide and 
conquer that way.
    Now that he has been indicted by the War Crimes Tribunal, I 
can only imagine that his desperation to hang onto power has 
intensified. Since the end of the war in Kosovo, opposition 
leaders in Serbia have launched demonstrations throughout the 
country, but thus far they have been unable to coordinate their 
message or their actions to reach out to a broader segment of 
the population. If these opposition forces have any hope of 
ousting Mr. Milosevic, it seems obvious to me that they must 
put aside personal differences and political ambition and, for 
the sake of their country, work together.
    Ambassador Gelbard, I know that you have been working very 
hard on this issue, and I hope that in your comments you can 
offer me and other members who will join us some hope that we 
are moving in the right direction.
    Furthermore, there are several other actors in this 
process: Montenegrin President Milo Djukanovic, the Serbian 
Orthodox Church, the student movement, which was so active in 
the 1996-97 demonstrations, and organizations like the 
independent media and trade unions. I am interested in 
exploring what role they can play in bringing about democratic 
change for Serbia.
    I note that just yesterday the Foreign Relations Committee 
approved the Serbian Democratization Act, legislation that was 
introduced by Senator Helms in March, that I co-sponsored along 
with 11 other Senators. Specifically, the legislation 
authorizes $100 million in democratic assistance to Serbia over 
the course of the next 2 years. This is critically important. 
We must help those who are trying to establish democracy in 
their country.
    I am pleased that the administration agrees with this 
approach and I understand that tomorrow in Sarajevo the 
President will announce that the United States will dedicate 
$10 million for this purpose. I encourage the administration to 
quickly identify appropriate organizations in Serbia so that 
this money can begin to have an effect as soon as possible. 
Milosevic must get this message: His days in power are over.
    I believe we will soon be joined by Senator Biden and other 
members, but without delay we will turn to you, Ambassador 
Gelbard, and we welcome you and look forward to your remarks.

STATEMENT OF HON. ROBERT S. GELBARD, SPECIAL REPRESENTATIVE OF 
THE PRESIDENT AND THE SECRETARY OF STATE FOR IMPLEMENTATION OF 
                    THE DAYTON PEACE ACCORDS

    Ambassador Gelbard. Thank you, Mr. Chairman. Thank you 
particularly for giving me the opportunity once again to appear 
before the committee to discuss the status of our efforts on 
democratization in the Federal Republic of Yugoslavia.
    With your permission, sir, I would like to enter the full 
text of my statement for the record.
    Senator Smith. Without objection, we will receive that.
    Ambassador Gelbard. This hearing comes at a moment of 
particular importance for the future of Yugoslavia and for the 
entire southeast European region. The success of the NATO air 
campaign, the deployment of KFOR, and the establishment of the 
U.N. civil administration in Kosovo have left President 
Slobodan Milosevic weakened and his policies discredited 
domestically as well as internationally.
    Milosevic, as you said, Mr. Chairman, is now an 
international pariah and an indicted war criminal. While he and 
his regime remain in power in Belgrade, Serbia and the FRY 
cannot take their place among the community of nations, nor can 
they join the process of Euro-Atlantic integration, symbolized 
tomorrow by the Stability Pact Summit in Sarajevo.
    Our policy with regard to Serbia has been very clearly 
articulated by President Clinton: As long as the Milosevic 
regime is in place, the United States will provide no 
reconstruction assistance to Serbia and we will continue our 
policy of overall isolation. Although we continue to provide 
the people of Serbia with humanitarian assistance through 
international organizations, like UNHCR, we cannot allow 
Milosevic or his political cronies to benefit from our aid. 
Helping to rebuild Serbia's roads and bridges would funnel 
money directly into the pockets of Milosevic and his friends, 
prolonging the current regime and denying Serbia any hope of a 
brighter future.
    We must keep Milosevic isolated. Our European allies agree 
fully with this approach. We are working closely with them to 
coordinate our activities on Serbia and to deter any attempt at 
weakening the existing sanctions regime against the FRY.
    Another key aspect of our policy on Serbia is to support 
the forces of democratic change that exist within Serbian 
society. Serbia's citizens have spontaneously demonstrated 
their disgust for Milosevic and their hunger for democratic 
government by gathering in the streets of cities throughout the 
country for the last several weeks. Opposition parties, taking 
advantage of the popular sentiment against Milosevic, have 
organized their own rallies and are beginning to mobilize for a 
larger effort in the fall. Serbia's independent media are also 
attempting to struggle out from under the weight of a draconian 
and repressive media law.
    These are all very positive signs and we want to nurture 
them. At the same time, however, I do not want to overemphasize 
the possibility that the Milosevic regime will fall soon. 
Milosevic continues to hold the main levers of power in his 
hands, most importantly the army, the police, and the state-
owned media. Overcoming these obstacles would be difficult even 
for a united opposition in Serbia, but, sadly, the Serbian 
opposition remains far from united.
    In all our dealings with Serbian opposition leaders--and I 
am in regular contact with every segment of the democratic 
opposition--we have urged them to overcome the politics of ego 
and to work together instead for the common good of Serbia and 
their people. I have repeatedly told opposition leaders--and I 
want to emphasize here--that the United States and the 
international community more broadly cannot do their job for 
them.
    Change in Serbia must come from within, not from the 
outside, which means from us. We can buttress the opposition's 
efforts. We can provide training and technical assistance to 
opposition parties. We can even provide equipment, and we can 
help widen the reach of the independent media. But we cannot 
win the hearts and minds of the Serbian people.
    That can only happen if the opposition unites around a 
strong platform for positive change, a platform that must 
emphasize the destructive nature of Milosevic's policies and 
presents a viable democratic alternative.
    It is not for us to pick a single winner out of the 
opposition pack. It is for them to combine their different 
strengths in service for the greater goal.
    Having said that, I would like to outline for you where we 
are focusing our efforts and in what ways we are promoting 
democratization in the FRY. Regardless of whether Milosevic 
stays or goes in the very short term, our support for 
democratic forces is an investment in Serbia's and Yugoslavia's 
future.
    I should note, in fact, that we are not beginning from 
ground zero by any means here. In the 2 years leading up to the 
Kosovo crisis we spent $16.5 million on programs in support of 
Serbian democratization. The beginning of the conflict in 
Kosovo and the subsequent closure of our embassy in Belgrade by 
necessity cut short some of our programs, but we are now 
revitalizing our democracy support as quickly as possible.
    I would divide the U.S. Government's efforts on Serbia 
democratization into five categories: First, as I noted at the 
beginning, we are making sure that Milosevic remains completely 
isolated. This involves not just our sanctions policy, which 
means three levels of sanctions, starting with the outer wall, 
the Kosovo-related sanctions starting a year and a half ago, 
and then the wartime sanctions including the fuel embargo, but 
also the visa ban, which has had a demonstrably negative effect 
on members of the Milosevic regime psychologically and in real 
terms, and of course The Hague Tribunal indictments.
    Second, we are beginning to assist a wide array of 
democratic groups, including NGO's, political parties, 
independent media, youth organizations, and independent labor 
unions, as you mentioned, Mr. Chairman.
    Third, we are consulting closely with European allies in 
order to coordinate our activities both on Kosovo and on Serbia 
democratization generally.
    Fourth, we are encouraging the active engagement of 
regional countries in southeast Europe and particularly the 
neighbors, to harness their expertise with democratization and 
transition.
    Fifth, we are providing strong support for the reform 
government in the FRY Republic Montenegro.
    I would like to discuss briefly some of these tracks in 
greater detail. As I mentioned, over the past 2 years U.S. 
agencies such as AID, as well as NGO's such as the National 
Democratic Institute, the International Republic Institute, and 
the National Endowment for Democracy, have spent $16.5 million 
on projects aimed at the development of democratic governance 
and civil society in the FRY.
    The situation this year was complicated by the outbreak of 
the conflict in Kosovo, but we still have money available in 
the pipeline for immediate use on Serbian democratization 
projects and we are using it right now. I am working closely 
with the National Endowment family, including IRI and NDI, to 
explore the best ways to help the Serbian opposition and, 
crucially, to encourage all opposition groups to work together.
    The consensus among the experts is that opposition parties 
will be best served if we provide them with technical 
assistance and first class political advice, the kind that may 
seem commonplace to us but represents a whole different way of 
thinking to them.
    Political parties are not the sole outlets for opposition 
in Serbia. Youth and student organizations, as well as 
independent labor unions, were very active in the 1996-97 
demonstrations in Serbia and will undoubtedly be important 
sources of mobilization in the future. The AFL-CIO's Solidarity 
Center has done good work with independent unions in Serbia 
and, with our support, is now readying a new program for 
interaction.
    On a larger economic scale, the Center for International 
Private Enterprise is preparing a program aimed at business 
leaders and independent economists in Serbia. Such economists, 
particularly those grouped under the G-17 in Belgrade, are 
widely respected and influential in Serbian society.
    In short, by working with these groups we want to show the 
people of Serbia that our policy is not aimed against them, but 
against their leadership.
    With regard to independent media, we are moving on two 
fronts. First, in order to increase the amount of objective 
news coverage reaching the Serbian population, we are nearing 
completion of what we call the ``ring around Serbia,'' a 
network of transmitters that permits us to broadcast Voice of 
America, Radio Free Europe, and other international news 
programs on FM frequencies throughout the country. RFE has now 
increased its Serbian language broadcasting to 13\1/2\ hours 
daily.
    Perhaps even more important, however, we want to strengthen 
Serbia's own independent media. Serbs, like Americans, prefer 
to get their news from their own sources in their own context. 
To this end, AID together with other international donors is 
reviewing a proposal by ANEM, the independent electronic media 
network in Serbia, that would assist individual television and 
radio stations, as well as create new links among them. Other 
programs to train journalists, support local print 
publications, and utilize Internet connections are also under 
consideration.
    Overall, Mr. Chairman, I would add, as you know, that the 
administration does support the Serbian Democratization Act 
sponsored by Senator Helms and you, Mr. Chairman, and 11 
others.
    The second aspect of U.S. policy on Serbia that I would 
like to highlight is our cooperation with the Europeans. The 
NATO alliance proved its strength during the Kosovo air 
campaign and that solidary has continued to be the rule, not 
the exception, in the post-conflict period. There are regular 
consultations between Secretary Albright and her European 
colleagues on issues related to both Kosovo and Serbia, as well 
as periodic meetings at the expert level.
    The Western Europeans support our basic approach on Serbia 
and agree that isolating Milosevic must be the cornerstone of 
our strategy. We have pushed back on some efforts to lift 
selectively the oil embargo and provide fuel to opposition-
controlled municipalities in Serbia, not because we object to 
helping opposition-run municipalities, but because oil is a 
fungible commodity and its distribution in Serbia would 
inevitably benefit Milosevic's regime.
    The Europeans, like us, are seeking the best ways to 
promote democracy in Serbia. They are eager to coordinate their 
democratization projects, as well as to ensure that we are all 
sending the same message of unity to the Serbian opposition.
    The third pillar of our policy is the effort to engage the 
countries of southeast Europe in the Serbia democratization 
process. Leaders of these countries will meet together with 
Euro-Atlantic leaders tomorrow in Sarajevo under the rubric of 
the new Stability Pact for the region. At that meeting, 
participants will reaffirm their commitment to democratic 
development and express their regret that the FRY cannot take 
its rightful place at the summit because of the Milosevic 
regime.
    We believe the countries of central and southeast Europe, 
with their vast experience in the transition to democratic and 
market-oriented societies, have a great deal to offer the 
people of the FRY. We are encouraging NGO's and governments in 
the region to create links to democratic voices in Serbia and 
to share the benefits of the wisdom they have gained over the 
past decade.
    Finally, in addition to our efforts to work with regional 
partners, we assign special importance to our cooperation with 
and support for the Government of Montenegro. This morning I 
noticed an editorial in the Wall Street Journal accusing the 
United States of neglecting Montenegro, which I find 
astonishing in its absolute incorrectness and the fact that it 
is totally wrong. We were not consulted on that editorial, of 
course.
    The fact is that over 2 years ago we recognized that Milo 
Djukanovic had the potential to become an effective 
counterweight to Milosevic and his authoritarian policies. I 
began meeting with Djukanovic regularly even before he became 
the President of Montenegro a year and a half ago. I was with 
him during his inauguration when we felt that a strong 
international presence, a public presence, would deter a 
Milosevic-inspired coup. The U.S. provided $20 million in 
budgetary support over the last several months, when no other 
country stepped in to fill the gap, and we are prepared to do 
more.
    We established a joint economic working group to discuss 
ways of modernizing the Montenegrin economy. We allowed 
Montenegrin-owned ships to enter U.S. ports during the conflict 
and we provided a blanket waiver from Montenegro from FRY-
related sanctions from the very beginning as a way of 
stimulating their economy.
    Djukanovic has managed to craft a multi-ethnic democratic 
coalition government that focused on political and economic 
reform and integration with the European mainstream. He and his 
government have consistently demonstrated courage and 
determination in implementing reform and in resisting 
Belgrade's attempts to strip Montenegro of its constitutional 
powers. As a result, we have steadily increased our support for 
Montenegro, providing financial and technical assistance as 
well as humanitarian assistance of many millions of dollars 
through UNHCR.
    Because the Government of Montenegro represents the most 
credible and powerful opposition force in the FRY today, we 
believe that President Djukanovic and Montenegro can play a 
constructive role in promoting democratic change in Serbia, 
too. While it is too small to change Serbia directly, it can 
serve as a guiding light for the Serbian opposition.
    What Montenegro needs now is support from their European 
neighbors in concrete terms, and particularly the same kind of 
sanctions waivers that we have provided all along. We have 
urged the Europeans to take a more forward-leaning approach to 
Montenegro and come through in concrete terms.
    Mr. Chairman, it is clear that we have not reached the 
point where we can say that Serbia is irreversibly on the road 
to democracy. Our efforts now, however, can do two things. In 
the short term, we can help the indigenous Serbian opposition 
to focus their energies and more effectively articulate their 
anger and frustration of the Serbian public. In the longer 
term, we can cultivate and strengthen these forces that will 
carry the democracy banner as long as Milosevic remains in 
power.
    Both of these are important goals. U.S. leadership in this 
endeavor is critical and your support is essential. As I said, 
the proposed Serbian Democratization Act, which would authorize 
$100 million over 2 years for democratization projects, is an 
excellent example of the convergence of administration and 
congressional perspectives on the Serbia democracy issue.
    We look forward to working together with Congress to bring 
democracy to Serbia and the entire Federal Republic of 
Yugoslavia and restore real stability to the region.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Gelbard follows:]

           Prepared Statement of Ambassador Robert S. Gelbard

    Thank you for giving me the opportunity once again to appear before 
the committee to discuss the status of our efforts on democratization 
in the Federal Republic of Yugoslavia. This hearing comes at a moment 
of particular importance for Yugoslavia and for the entire Southeast 
Europe region. The success of the NATO air campaign, the deployment of 
KFOR, and the establishment of the UN civil administration in Kosovo 
have left FRY President Milosevic weakened and his policies discredited 
domestically. Milosevic is now an international pariah and an indicted 
war criminal. While he and his regime remain in power in Belgrade, 
Serbia and the FRY cannot take their place among the community of 
nations, nor can they join the process of Euro-Atlantic integration 
symbolized this week by the Stability Pact summit in Sarajevo.
                              u.s. policy
    Our policy with regard to Serbia has been very clearly articulated 
by President Clinton. As long as the Milosevic regime is in place, the 
United States will provide no reconstruction assistance to Serbia. 
Although we continue to provide the people of Serbia with humanitarian 
assistance through international organizations like UNHCR, we cannot 
allow Milosevic or his political cronies to benefit from our aid. 
Helping to rebuild Serbia's roads and bridges would funnel money 
directly into the pockets of Milosevic and his friends, prolonging the 
current regime and denying Serbia any hope of a brighter future. We 
must keep Milosevic isolated. Our European allies agree fully with this 
approach. We are working closely with them to coordinate our activities 
on Serbia and to deter any attempt at weakening the existing sanctions 
regime against the FRY.
    Another key aspect of our policy on Serbia is to support the forces 
of democratic change that exist within Serbian society. Serbia's 
citizens have spontaneously demonstrated their disgust for Milosevic 
and their hunger for democratic government by gathering in the streets 
of cities throughout the country for the last several weeks. Opposition 
parties, taking advantage of the popular sentiment against Milosevic, 
have organized their own rallies and are beginning to mobilize for a 
larger effort in the fall. Serbia's independent media are also 
attempting to struggle out from under the weight of a draconian and 
repressive media law. These are all very positive signs and we want to 
nurture them.
    At the same time, however, I do not want to overemphasize the 
possibility that the Milosevic regime will fall anytime soon. Milosevic 
continues to hold the main levers of power in his hands, most 
importantly the army, the police, and the state-owned media. Overcoming 
these obstacles would be difficult even for a united opposition in 
Serbia, and--sadly--the Serbian opposition remains far from united.
    In all of our dealings with Serbian opposition leaders (and I am in 
regular contact with every segment of the democratic opposition) we 
have urged them to overcome the politics of ego and work together for 
the common good of Serbia. I have told opposition leaders--and I want 
to emphasize here--that the United States, and the international 
community more broadly, cannot do their job for them. Change in Serbia 
must come from within, not from the outside. We can buttress the 
opposition's efforts, provide training and technical assistance to 
opposition parties, and help widen the reach of the independent media, 
but we cannot win the hearts and minds of the Serbian people. That can 
only happen if the opposition unites around a strong platform for 
change, a platform that emphasizes the destructive nature of 
Milosevic's policies and presents a viable democratic alternative. It 
is not for us to pick a single winner out of the opposition pack; it is 
for them to combine their different strengths in service of a greater 
goal.
                           what we are doing
    Having said that, I would like to outline for you where we are 
focusing our efforts and in what ways we are promoting democratization 
in the FRY. Regardless of whether Milosevic stays or goes in the short 
term, our support for democratic forces is an investment in Serbia's 
future.
    I should note, in fact, that we are not beginning from ground zero 
by any means. In the two years leading up to the Kosovo crisis, we 
spent 16.5 million dollars on programs in support of Serbia 
democratization. The beginning of the conflict in Kosovo and the 
subsequent closure of our embassy in Belgrade by necessity cut short 
some of these programs, but we are now revitalizing our democracy 
support as quickly as possible.
    I would divide the U.S. government's efforts on Serbia 
democratization into five categories:

  <bullet> first, as I noted at the beginning, we are making sure that 
        Milosevic remains completely isolated. This involves not just 
        our sanctions policy but the visa ban--which has had a 
        demonstrably negative impact on members of the Milosevic 
        regime--and ICTY indictments;
  <bullet> second, we are planning to assist a wide array of democratic 
        groups, including NGOs, political parties, independent media, 
        youth organizations and independent labor unions;
  <bullet> third, we are consulting closely with European allies in 
        order to coordinate our activities both on Kosovo and on Serbia 
        democratization generally;
  <bullet> fourth, we are encouraging the active engagement of regional 
        countries in Southeast Europe to harness their expertise with 
        democratization and transition;
  <bullet> and fifth, we are providing strong support for the reformist 
        government in the FRY republic of Montenegro.

    I would like to discuss some of these tracks in greater detail.
                    assistance to democratic groups
    As I mentioned, over the past two years, U.S. government agencies 
such as USAID--as well as NGOs like NDI, IRI and the NED--have spent 
16.5 million dollars on projects aimed at the development of democratic 
governance and civil society in the FRY. The situation this year was 
complicated by the outbreak of the conflict in Kosovo, but we still 
have money available in the pipeline for immediate use on Serbian 
democratization projects.
    We are moving forward swiftly on a whole range of such projects. I 
am working closely with the NED family, including IRI and NDI, to 
explore the best ways to help the Serbian opposition and--crucially--to 
encourage all opposition groups to work together. The consensus among 
the experts is that opposition parties will be best served if we 
provide them with technical assistance and first-class political 
advice, the kind that may seem commonplace to us but represents a whole 
different way of thinking to them.
    Political parties are not the sole outlets for opposition in 
Serbia. Youth and student organizations, as well as independent labor 
unions, were very active in the 1996-97 demonstrations in Serbia and 
will undoubtedly be important sources of mobilization in the future. 
The AFL-CIO ``Solidarity Center'' has done good work with independent 
unions in Serbia and, with our support, is now readying a new program 
for interaction. On a larger economic scale, the Center for 
International Private Enterprise is prepared to develop a program aimed 
at business leaders and independent economists in Serbia. Such 
economists, particularly those grouped under the G-17 in Belgrade, are 
widely respected and influential in Serbian society. In short, by 
working with these groups, we want to show the people of Serbia that 
our policy is not aimed against them, but against their leadership.
    With regard to independent media in Serbia, we are moving on two 
fronts. First, in order to increase the amount of objective news 
coverage reaching the Serbian population, we are nearing completion of 
the ``Ring Around Serbia,'' a network of transmitters that will permit 
us to broadcast VOA, RFE and other international news programs on FM 
frequencies throughout the country. RFE has now increased its Serbian-
language broadcasting to 13\1/2\ hours daily. Perhaps even more 
important, however, we want to strengthen Serbia's own independent 
media. Serbs, like Americans, prefer to get their news from their own 
sources, in their own context. To this end, USAID, together with other 
international donors, is reviewing a proposal by ANEM (the independent 
electronic media network in Serbia) that would assist individual 
television and radio stations as well as create new links among them. 
Other programs to train journalists, support local print publications, 
and utilize Internet connections are also under consideration.
                          working with allies
    The second aspect of U.S. policy on Serbia that I would like to 
highlight is our cooperation with the Europeans. The NATO alliance 
proved its strength during the Kosovo air campaign, and that solidarity 
has continued to be the rule, not the exception, in the post-conflict 
period. There are regular consultations between Secretary Albright and 
her European colleagues on issues related to both Kosovo and Serbia, as 
well as periodic meetings at the expert level.
    The Europeans support our basic approach on Serbia and agree that 
isolating Milosevic must be the cornerstone of our strategy. We have 
pushed back on some European efforts to selectively lift the oil 
embargo and provide fuel to opposition-controlled municipalities in 
Serbia--not because we object to helping opposition-run municipalities 
but because oil is a fungible commodity and its distribution in Serbia 
would inevitably benefit Milosevic's regime. The Europeans, like us, 
are seeking the best ways to promote democracy in Serbia. They are 
eager to coordinate their democratization projects as well as to ensure 
that we are all sending the same message of unity to the Serbian 
opposition.
                        working with the region
    The third pillar of our Serbia policy is the effort to engage the 
countries of Southeast Europe in the Serbia democratization process. 
Leaders of SE European countries will meet together with Euro-Atlantic 
leaders tomorrow in Sarajevo under the rubric of the new Stability Pact 
for the region. At that meeting, participants will reaffirm their 
commitment to democratic development and express their regret that the 
FRY cannot take its rightful place at the summit because of the 
undemocratic nature of the Milosevic regime. We believe that the 
countries of central and southeast Europe, with their vast experience 
in the transition to democratic and market-oriented societies, have a 
great deal to offer the people of the FRY. We are encouraging NGOs and 
governments in the region to create links to democratic voices in 
Serbia and to share the benefits of the wisdom they have gained over 
the past decade.
                               montenegro
    Finally, in addition to our efforts to work with regional partners, 
we assign special importance to our cooperation with and support for 
Montenegro.
    This morning I noticed an editorial in the Wall Street Journal 
accusing the U.S. of neglecting Montenegro, which I regard as both 
factually incorrect and fundamentally wrong. The fact is that over two 
years ago we recognized that Milo Djukanovic had the potential to 
become an effective counterweight to Milosevic and his authoritarian 
policies. I began meeting with Djukanovic regularly even before he 
became the President of Montenegro; I was with him during his 
inauguration when we felt that a strong international presence would 
deter a Milosevic-inspired coup; the U.S. provided 20 million dollars 
in budgetary support when no other country stepped in to fill the gap; 
we established a joint economic working group to discuss ways of 
modernizing the Montenegrin economy; we allowed Montenegrin-owned ships 
to enter U.S. ports; and we provided a blanket waiver for Montenegro 
from FRY-related sanctions from the very beginning.
    Djukanovic managed to craft a multi-ethnic, democratic coalition 
government that focused on political and economic reform and 
integration with the European mainstream. Djukanovic and his government 
have consistently demonstrated courage and determination in 
implementing reforms and in resisting Belgrade's attempts to strip 
Montenegro of its constitutional powers. As a result, we have steadily 
increased our support for Montenegro, providing financial and technical 
assistance as well as humanitarian assistance worth millions through 
UNHCR.
    Because the government of Montenegro represents the most credible 
and powerful opposition force in the FRY today, we believe that 
Montenegro can play a constructive role in promoting democratic change 
in Serbia. While Montenegro is to small to change Serbia directly, it 
can serve as a guiding light for the Serbian opposition. What 
Montenegro needs now is support from their European neighbors in 
concrete terms, and in particular the same kind of sanctions waiver 
that we provided all along. We have urged the Europeans to take a more 
forward-leaning approach to Montenegro.
                               conclusion
    It is clear we have not yet reached the point where we can say that 
Serbia is irreversibly on the road to democracy. Our efforts now, 
however, can do two things. In the short term, we can help the 
indigenous Serbian opposition to focus its energies and more 
effectively articulate the anger and frustration of the Serbian public. 
In the longer term, we can cultivate and strengthen those forces that 
will carry the democracy banner as long as Milosevic remains in power. 
Both of these are important goals. U.S. leadership in this endeavor 
will be critical, and your support will be essential. The proposed 
Helms Democracy Act, which would authorize 100 million dollars over two 
years for democratization projects, is a good example of the 
convergence of Administration and Congressional perspectives on the 
Serbia democracy issue. We look forward to working together with 
Congress to bring democracy to Serbia and restore real stability to the 
region.

    Senator Smith. Thank you very much, Ambassador Gelbard.
    Before we turn to you, Ambassador Pardew, we are pleased to 
be joined by my colleague Senator Biden. We would love to hear 
your comments.
    Senator Biden. I would ask unanimous consent that my 
statement be placed in the record.
    Senator Smith. Without objection.
    Senator Biden. Then I will be commenting.
    Senator Smith. All right.
    Senator Biden. Thank you.

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Thank you, Mr. Chairman, and thank you for holding this important 
hearing. I can think of no subject that is more timely than the 
prospects for democracy in Yugoslavia.
    I believe this Committee is doing a real service to the American 
people through the detailed analysis the expert witnesses and Senators 
will offer.
    It is easy to fall into the trap of personalizing politics--of 
tracing every development to an individual and minimizing, or ignoring, 
larger societal factors.
    But there is no denying that for more than a decade Slobodan 
Milosevic has exercised a dominant influence on the destiny of Serbia, 
and of Yugoslavia.
    There is no doubt that Serbian nationalism is one of the strongest 
and deepest in Europe.
    It is also true that ever since the founding of the first Yugoslav 
state--the Kingdom of Serbs, Croats, and Slovenes--in 1918, there have 
been bitter antagonisms and quarrels among the various peoples in 
Yugoslavia.
    But, Mr. Chairman, it is also true that a far-sighted statesman, 
concerned with the well-being of his country rather than his own 
personal agenda, could have steered a positive course of economic and 
political reform.
    Instead, Milosevic turned to demagogy, playing on ethnic fears and 
discontent, and tapping into Serbian ultra-nationalism in order to 
climb to power in Serbia.
    Then, once firmly established as the unchallenged boss of Serbia, 
he cynically provoked successive crises in Slovenia, Croatia, Bosnia 
and Herzegovina, and Kosovo in order to hold onto power by distracting 
public attention from his corrupt mismanagement of the Serbian economy 
and state.
    What have been the results of Milosevic's brutal policies?
    The grim human legacy is hundreds of thousands of dead Croats, 
Bosniaks, Serbs, Albanians, and others.
    In political terms, instead of the ``Greater Serbia'' that 
Milosevic tried to create, centuries of Serbian culture in the Krajina 
have been eradicated, the cradle of Serbian civilization in Kosovo is 
in grave danger, and Serbian-ruled territory threatens to be reduced to 
the borders of last century's Pashalik of Belgrade.
    As a result of Milosevic's latest ill-fated adventure in Kosovo, 
much of Serbia's infrastructure now lies in twisted ruins.
    Serbian citizens are already chopping wood in preparation for what 
promises to be a cruel, unheated winter.
    Mr. Chairman, I do not believe for a minute that the majority of 
Serbs, if they had been given the facts, would have voted for a policy 
of ethnic cleansing in Kosovo.
    The brave mayor of the Serbian town of Cack recently accused 
Milosevic of having shamed Serbia's name before the entire world. 
Leaders of the Serbian Orthodox Church have voiced similar sentiments.
    Considering all these developments, one would think that the time 
was ripe for getting rid of Milosevic.
    It may well be. The problem, of course, is that the opposition 
forces appear to remain as fragmented as they proved to be in the 
spring of 1997.
    I will leave it to our expert witnesses to pursue this topic in 
detail. I hope I am not unduly pessimistic about the chances of the 
various opposition groups' uniting.
    Yesterday this Committee passed the ``Serbia Democracy Act of 
1999,'' which, among other measures, authorizes one hundred million 
dollars in assistance over the next two years to promote democracy and 
civil society in Serbia and to help the reformist government of 
Montenegro.
    Tomorrow the leaders of the United States, of Western European 
countries, and of all the countries of the Balkans except Milosevic 
will meet in Sarajevo to discuss a Southeast Europe Stability Pact, 
which is supposed to provide a regional framework for economic 
reconstruction.
    But, I submit, the sine qua non for regional development in the 
Balkans is a democratic government in Belgrade that is tolerant of, and 
willing to cooperate with, its neighbors.
    That, of course, can only happen if Slobodan Milosevic leaves the 
scene. At long last the West has come to the conclusion that instead of 
being part of the solution to the Yugoslav Problem, Milosevic is that 
problem. Our governments have been slow learners, but I suppose 
``better late than never.''
    Mr. Chairman, again I thank you for holding this hearing. I look 
forward to hearing the testimonies of our two panels of witnesses and 
to having the opportunity to ask them questions.

STATEMENT OF HON. JAMES W. PARDEW, JR., DEPUTY SPECIAL ADVISOR 
  TO THE PRESIDENT AND THE SECRETARY OF STATE FOR KOSOVO AND 
                     DAYTON IMPLEMENTATION

    Ambassador Pardew. Mr. Chairman, I too have a brief 
statement that I would like to submit for the record.
    Senator Smith. We would be pleased to receive that.
    Ambassador Pardew. I am grateful for this opportunity to 
discuss with you today our efforts to promote democracy in 
Kosovo. The movement toward democracy is key to promoting U.S. 
interests of regional stability in southeastern Europe.
    Secretary Albright was in Kosovo today meeting with 
representatives of the international community and the people 
of Kosovo to promote our objectives. Tomorrow she will join 
President Clinton and more than three dozen other world leaders 
at the Stability Pact Summit in Sarajevo to emphasize our 
interest in a stable, prosperous, and democratic southeastern 
Europe.
    Democracy in Kosovo must be built from the ground up. It 
must rise literally from the ashes of a savage campaign of 
destruction and murder waged by Milosevic's forces. And it must 
rely ultimately on the Kosovar Albanian population, which has 
been prohibited for more than a decade from participating in 
the existing structures of government, structures that were 
themselves undemocratic.
    But we cannot forget that in the time since Belgrade 
revoked Kosovo's autonomy Kosovar Albanians built and managed 
their own shadow government institutions. Despite the horrors 
of recent conflict, therefore, a basis for self-government 
already exists, but it must be revived, guided, and allowed to 
move toward true multi-ethnic democracy.
    Our immediate steps in meeting this challenge have been 
achieved. First, Serb forces responsible for carrying out the 
systematic campaign of atrocities and ethnic cleansing in 
Kosovo have been driven from the province by NATO's successful 
air campaign. Second, more than 700,000 of approximately 
800,000 refugees driven out of Kosovo by Milosevic have been 
able to return more rapidly than anyone imagined and have begun 
to rebuild their lives. Third, the international security force 
and civil administration called for in U.N. Security Council 
Resolution 1244 under NATO and the United Nations are being 
established.
    KFOR currently has about 35,600 troops from 20 nations, 
including 5,600 U.S. forces, in Kosovo. KFOR is rapidly 
establishing the secure environment necessary for political and 
economic development in the province in the future.
    The U.N. mission in Kosovo, or UNMIK, is making steady 
progress in deploying civil administrators, civilian police, 
and judicial authorities to the field under difficult 
circumstances. UNMIK has a powerful mandate, one sufficient to 
create the foundation for a democratic society. Nevertheless, 
there is still a long way to go, and we are urging the U.N. and 
contributing countries to deploy their resources and personnel 
to Kosovo as quickly as possible.
    About 700 international staff are already on the ground, 
including more than 160 civilian police. Approximately 50 
Kosovar judges, prosecutors, and defense attorneys have already 
been appointed, and civilian personnel continue to move in to 
fill positions within the U.N. administration.
    Last Sunday, UNMIK issued its regulation No. 1, which 
specifies that all legislative and executive authority in 
Kosovo is vested in UNMIK, and it lays out how that authority 
is to be exercised.
    For our part, we are moving to place American officials in 
leadership positions within UNMIK and to commit personnel and 
resources to the programs that would be crucial to future 
democracy in Kosovo. An experienced American diplomat, Jock 
Covey, is in Kosovo as the principal deputy to the U.N. 
Secretary General's Special Representative Bernard Kouchner. We 
have placed Americans in a number of other key UNMIK positions. 
Further, if the Congress approves we intend to open a U.S. 
office in Pristina that enables us to engage directly with the 
international agencies, Kosovar leaders and citizens.
    The effort to promote democracy in Kosovo has several 
components. The most urgent item on UNMIK's agenda is the 
establishment of a civilian police force that will assume 
responsibility for law and order. The U.N. intends to deploy 
3,100 international civil police in Kosovo, the largest 
international civilian police operation in which the U.S. has 
participated. The UNMIK civilian police will be armed and will 
have arrest authority. The U.S. has committed 450 of those 
civilian police.
    As these police deploy, the OSCE will begin to train the 
Kosovar police of about 3,000, which will eventually take over 
responsibility for civilian policing. The U.S. is playing a 
leading role in this effort as well. An American has been 
appointed to head the police training academy. Nearly 6,000 
applications have already been received from the Kosovar public 
for membership in this police force. The site for the police 
academy has been identified and the first class should begin 
training next month.
    No less important than police in the long run is the prompt 
establishment of a judicial system and a human rights 
monitoring regime. The U.S. is working closely with the U.N. 
and OSCE to develop a comprehensive coordinated approach to 
implementing a justice system that operates under UNMIK 
authority, but that is staffed by Kosovar judges and attorneys.
    In order to avoid a cycle of revenge and to foster an 
atmosphere of reconciliation, the U.S. has nominated 21 
qualified human rights monitors as part of the OSCE contingent 
of more than 100 who will monitor and protect human rights of 
all Kosovars, whatever their ethnicity or religion.
    We pushed hard and successfully for the creation of a human 
rights ombudsperson in Kosovo, and we intend to provide 
manpower and resources to support that office. In addition, we 
have pledged $9 million for the ICTY to ensure that the work of 
the War Crimes Tribunal in Kosovo can be carried forward.
    Further down the road, democratization in Kosovo will 
require an active, pluralistic political life, free and fair 
elections, and self-government. We have no intention of seeing 
one single-party system replace another. In that regard, UNMIK 
is establishing local and national councils which are intended 
to guarantee the broadest possible citizen participation in the 
process of creating self-government in Kosovo.
    Though Serbs and Albanians have at one time or another 
boycotted the work of these councils, they remain essential to 
building the conditions in which democracy can take root. In 
her meeting today in Kosovo, Secretary Albright has emphasized 
to both Albanians and Serbs the need to participate fully and 
to make these councils work.
    We are also working with the United Nations, the OSCE, and 
other international organizations to foster political party 
development and support training programs for civil 
administrators. Our goal is to hold local and Kosovo-wide 
elections as soon as possible.
    The fostering of independent and responsible media is 
another indispensable part of building democracy and civil 
society in Kosovo. In addition to our continuing assistance to 
indigenous media there, I am pleased to note that an American, 
Doug Davidson, has been named to be head of OSCE's Division of 
Media Affairs, which will have the responsibility for promoting 
the development of responsible independent media in Kosovo.
    The most urgent task is to get Radio-TV Pristina operating, 
not as the mouthpiece of one party and one ethnic group, but as 
an independent, nonpartisan voice of all the people of Kosovo. 
Radio Pristina was on the air yesterday afternoon for the first 
time since the beginning of the NATO air campaign, broadcasting 
news and features in both Albanian and Serbian.
    The commitments that I have just listed are essential to 
the creation of a peaceful democratic Kosovo, which is a 
critical element of U.S. interests in Europe. In the end, 
however, the establishment of democracy will depend on the 
people of Kosovo themselves.
    Our overall objective is to see Kosovo, a democratic 
Serbia, and the whole of southeastern Europe as an integral 
part of an undivided, democratic and peaceful Europe. For we 
have learned from the history of this century that without 
stability in southeastern Europe the continent as a whole will 
not be peaceful. And we have learned from the history of the 
last 10 years that without peace, a democratic peace, in Kosovo 
there can be no stability in southeastern Europe.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Pardew follows:]

         Prepared Statement of Ambassador James W. Pardew, Jr.

    I am grateful for the opportunity to discuss with you today our 
efforts to promote democracy in Kosovo. Movement toward democracy is 
key to promoting the U.S. interest of regional stability in 
southeastern Europe. Secretary Albright is in Kosovo today meeting with 
representatives of the international community and the people of Kosovo 
to promote our objectives. Tomorrow she will join President Clinton and 
more than three dozen other world leaders at the Stability Pact summit 
in Sarajevo to emphasize our interest in a stable, prosperous, and 
democratic southeastern Europe.
    Democracy in Kosovo must be built from the ground up. It must rise 
literally from the ashes of a savage campaign of destruction and murder 
waged by Milosevic's forces. And it must rely ultimately on a Kosovar 
Albanian population which has been prohibited for more than a decade 
from participating in the existing structures of government--structures 
that were themselves undemocratic. But we should not forget that, in 
the time since Belgrade revoked Kosovo's autonomy, Kosovar Albanians 
built and managed their own ``shadow government'' institutions. Despite 
the horrors of the recent conflict, therefore, a basis for self-
government already exists. But it must be revived, guided, and allowed 
to move toward true multi-ethnic democracy.
    Our immediate steps in meeting this challenge have been achieved. 
First, the Serb forces responsible for carrying out a systematic 
campaign of atrocities and ethnic cleansing in Kosovo have been driven 
from the province by NATO's successful air campaign. Second, more than 
700,000 out of the approximately 800,000 refugees driven out of Kosovo 
by Milosevic have been able to return more rapidly than anyone 
imagined, and have begun to rebuild their lives. Third, the 
international security force and civil administration called for in 
UNSC resolution 1244, under NATO and the UN, are being established.
    KFOR currently has about 35,500 troops from twenty one nations, 
including 5,596 U.S. forces, in Kosovo. KFOR is rapidly establishing 
the secure environment necessary for political and economic development 
in the province.
    The UN mission in Kosovo (UNMIK) is making steady progress in 
deploying civil administrators, civilian police and judicial 
authorities to the field under extremely daunting circumstances. UNMIK 
has a powerful mandate, one sufficient to create the foundation for a 
democratic society. Nevertheless, there is still a long way to go, and 
we are urging the UN and contributing countries to deploy their 
resources and personnel to Kosovo as quickly as possible.
    About 700 international staff are already on the ground, including 
more than 160 civilian police; approximately 50 judges, prosecutors and 
defense attorneys have already been appointed; and civilian personnel 
continue to move in and fill positions within the UN administration. 
Last Sunday, UNMIK issued its regulation number one, which specifies 
that all legislative and executive authority in Kosovo is vested in 
UNMIK, and lays out how that authority will be exercised.
    For our part, we are moving to place American officials in 
leadership positions within UNMIK and to commit personnel and resources 
to the programs that will be crucial for the future of democracy in 
Kosovo. An experienced American diplomat, Jock Covey, is in Kosovo as 
the principal deputy to the UN Secretary General's Special 
Representative Bernard Kouchner; we have placed Americans in a number 
of other key UNMIK positions; further, if the Congress approves, we 
intend to open a U.S. office in Pristina that enables us to engage 
directly with international agencies, Kosovar leaders and citizens.
    There are four pillars to UNMIK's operations in Kosovo. One is 
humanitarian, under the UNHCR, which is up and running, providing 
urgent humanitarian assistance to refugees and IDPs. Then there is 
reconstruction, to be led by the European Union, which held its first 
donors conference yesterday in Brussels. A third pillar is interim 
civil administration. And last, but certainly not least, is institution 
building, which is the responsibility of the OSCE.
    The effort to promote democracy in Kosovo has several components. 
The most urgent item on UNMIK's agenda is the establishment of a 
civilian police force that will assume responsibility for law and 
order. The UN intends to deploy 3,100 international civilian police in 
Kosovo--the largest international civilian police operation in which 
the U.S. has ever participated. The UNMIK civilian police will be armed 
and will have arrest authority. The U.S. has committed to provide 450 
of those police.
    As these police deploy, the OSCE will begin training the Kosovar 
police force of 3,000 which will eventually take over responsibility 
for civilian policing. The U.S. is playing a leading role in this 
effort as well. An American (Steve Bennett) has been appointed to head 
the police training academy; nearly 6,000 applications have already 
been received; the site for the academy has been identified; and the 
first class should begin training next month.
    No less important than police in the long run is the prompt 
establishment of a judicial system and a human rights monitoring 
regime. The U.S. is working closely with the UN and OSCE to develop a 
comprehensive, coordinated approach to implementing a justice system 
that operates under UNMIK authority, but that is staffed by Kosovar 
judges and attorneys.
    In order to avoid a cycle of revenge and to foster an atmosphere of 
reconciliation, the U.S. has nominated 21 qualified human rights 
monitors as part of the OSCE's contingent of more than 100 who will 
monitor and protect the human rights of all Kosovars, whatever their 
ethnicity or religion. We pushed hard and successfully for the creation 
of a human rights ombudsperson in Kosovo, and we intend to provide 
manpower and resources in support of that office, which will be under 
the aegis of the UN. In addition, we have pledged nine million dollars 
for the ICTY to ensure that the work of the War Crimes Tribunal in 
Kosovo can be carried forward.
    Further down the road, democratization in Kosovo will require an 
active, pluralistic political life, free and fair elections, and self-
government. We have no intention of seeing one single-party system 
replace another. In that regard, UNMIK is establishing local and 
national councils which are intended to guarantee the broadest possible 
citizen participation in the process of creating self-government in 
Kosovo. Though both Serbs and Albanians have at one time or another 
boycotted the work of these councils, they remain essential to the 
building of conditions in which democracy can take root. In her 
meetings today in Kosovo, Secretary Albright has emphasized to both 
Albanians and Serbs the need to participate fully and make these 
councils work.
    We are also working with the UN, the OSCE, and other international 
organizations to foster political party development and support 
training programs for civil administrators. Our goal is to hold local 
and Kosovo-wide elections as soon as possible.
    The fostering of independent and responsible media is another 
indispensable part of building democracy and civil society in Kosovo. 
In addition to our continuing assistance to indigenous media there, I 
am pleased to note that an American (Douglas Davidson) has just been 
named to head the OSCE's Division of Media Affairs, which will have 
responsibility for promoting the development of responsible independent 
media in Kosovo. Their most urgent task is to get radio/TV Pristina 
operating, not as the mouthpiece of one party and one ethnic group but 
as an independent, nonpartisan voice of all the people of Kosovo. Radio 
Pristina was on the air yesterday afternoon for the first time since 
the beginning of the NATO air campaign, broadcasting news and features 
in both Albanian and Serbian.
    The commitments I have just listed are essential to the creation of 
a peaceful, democratic Kosovo, which is a critical element of the 
overall U.S. interest in a Europe that is united and free. In the end, 
however, the establishment of democracy will depend upon the people of 
Kosovo themselves.
    Our overall objective is to see Kosovo, a democratic Serbia, and 
the whole of southeastern Europe as an integral part of an undivided, 
democratic, peaceful Europe. For we have learned from the history of 
this century that without stability in southeastern Europe, the 
continent as a whole will not be peaceful; and we have learned from the 
history of the last ten years that without peace--a democratic peace--
in Kosovo, there can be no stability in southeastern Europe.

    Senator Smith. Thank you, Ambassador Pardew.
    Ambassador Gelbard, I wonder if Balkan ghosts are so alive 
even in Serbia that these opposition forces can actually unite 
to extricate Mr. Milosevic. What are the odds? I mean, do you 
see it happening?
    There is a number of parties here, Mr. Draskovic and Mr. 
Djindjic. Can they put aside personal ambition for national 
good in this effort?
    Ambassador Gelbard. Well, first, Mr. Chairman, one thing I 
have learned after a number of years working in the Balkans is 
that I do not give odds. I like to be pleasantly surprised if 
that should happen.
    The biggest obstacle right now, as I said, has been the 
fractiousness of some elements of the opposition and the 
possibility that they may not have learned from the mistakes 
they committed in the past, where they allowed their egos, 
personal differences, and perhaps even some ideological 
differences to get in the way from achieving the ultimate goal 
that they all say they desire.
    As you know, Mr. Chairman, and as Senator Biden knows very 
well, the Zajedno group blew their opportunity during the 
winter of 1996-97 when they had victory in their hands. A 
principal reason for that was indeed personality differences 
between Draskovic and Djindjic. Over the last year and a half, 
some elements of the opposition appear to have learned from 
this. Several coalition groups have developed in a very 
positive way, including the Alliance for Change, the Alliance 
for Democratic Political Parties, and others, and their message 
appears to be a constructive one, a forward-looking one about 
the future that could be that of Serbia and the FRY.
    Our message to the opposition has been that this time they 
need to learn from the mistakes of the past, because they have 
such an extraordinary opportunity now, and they need to find a 
way, if they cannot construct a single opposition front, then 
at least to develop a loose coalition that follows the same 
line and to avoid undercutting each other.
    There have been a number of non-aggression pacts signed 
among opposition groups and parties so far. That is a positive 
sign, and we think it is critical that they continue to move 
forward on this kind of code of conduct, as well as similar 
platforms in their demonstrations as they move forward.
    Senator Smith. As you look into the future and you think of 
Montenegro and what they are doing, is Montenegro something of 
a model for how Kosovo could develop? Is Montenegro likely to 
go independent as well?
    Ambassador Gelbard. Well, first, we have, as I said in my 
written testimony, continued to point to the government, the 
ruling party, the ruling coalition in Montenegro, as the right 
kind of example for Serbia, in the sense that they have 
developed a multi-ethnic democratic coalition, which 
incidentally includes Serbs, Montenegrins, Albanians, Bosniacs, 
lots of others.
    In that sense, we would hope that the Serbian political 
parties and NGO's, labor unions and the like, could learn from 
this. It is very interesting for me that Serb opposition 
leaders really look up to President Djukanovic, not just 
because he is six five, but because he is somebody who clearly 
has demonstrated a willingness and an ability to construct a 
democratic coalition that functions and that pursues free 
market economic policies.
    So we certainly hope that, whether it is the people of 
Serbia and their leadership, their political parties, or in 
Kosovo, that this can be a kind of example. At the same time, 
our preference, of course, strong preference, as I repeatedly 
told President Djukanovic, is for Montenegro to remain an 
integral part of the FRY.
    Senator Smith. Is that likely, or what do you expect will 
happen?
    Ambassador Gelbard. President Djukanovic is looking for a 
fairer deal under the constitution that exists. The 
constitution itself is not bad; it has been the way Milosevic 
has twisted it over the last 7 or 8 years. Djukanovic is now 
looking for more autonomy under this constitution as a way of 
keeping Montenegro inside of Yugoslavia, and we do not disagree 
with that.
    We want to continue to see Montenegro as part of Yugoslavia 
and we feel that a country made up of equal republics is a 
reasonable and decent way to go.
    Senator Smith. Ambassador Pardew, without a democratic 
change in Belgrade, though, is it realistic for Kosovo to be a 
truly autonomous province in Serbia?
    Ambassador Pardew. In the long run we must have a 
democratic change in Belgrade. We are going to do everything 
that we possibly can to create the institutions of democracy in 
Kosovo, without regard to what happens in Belgrade.
    But you are right, there are limits to how far you can go 
with the current regime in Belgrade. So I agree with you.
    Senator Smith. Senator Biden.
    Senator Biden. Gentlemen, they are both good statements, I 
believe. There is so much to ask. Let me start by picking up 
where the chairman left off. Montenegro has basically issued an 
ultimatum to Serbia, which says: We want greater autonomy, we 
want to be able to conduct relations with other countries 
without Belgrade's interference. They set a deadline for that 
to occur. They are going to hold a referendum. That has been 
pushed back, as I understand it, until September.
    I do not know where that goes. If Milosevic accedes to 
that, he demonstrates he has even less power than he is trying 
to portray. And if he does not, there is nothing he can do to 
stop what Montenegro is going to do.
    Would you comment on that, Ambassador Gelbard?
    Ambassador Gelbard. First, under the constitution of the 
FRY, the Federal constitution, and under Montenegro's 
constitution they do have certain rights which go further than 
we would normally expect part of a sovereign state to have. For 
example, they do have legitimately their own foreign minister 
and ability to conduct some foreign policy functions 
constitutionally.
    They also have the right to have a referendum on 
independence under their constitution. My sense is that right 
now the vote would not go in favor of independence. But what is 
very clear, Senator, is that Milosevic has been the one who has 
pushed the Montenegrin people in this direction over the course 
of the last 2 years.
    As I mentioned in my testimony, Milosevic and his puppet, 
the former president of Montenegro, Momir Buledovic, tried to 
overthrow Djukanovic before he was inaugurated as President on 
June 15, 1998. They also increased the size of the army, the 
VJ, in Montenegro during the conflict in Kosovo from 9,500, 
which is its usual size, up to 40,000 by adding on reservists 
and some other regular army personnel.
    There was a very delicate dance that took place there 
between the VJ and the police, which come under the Montenegrin 
Government. I think Milosevic knew that if the army tried to 
overthrow Djukanovic there was likely to be civil war. The army 
was likely to fracture and the police are quite strong.
    Nonetheless, the Montenegrin Government is showing prudence 
in how it is trying to proceed. Djukanovic by his own public 
statements has said that he does not want independence. What he 
wants is equal opportunity inside of the FRY.
    Senator Biden. But he has threatened a referendum, has he 
not?
    Ambassador Gelbard. He has threatened a referendum, which, 
as I said, is legitimate under their constitution. So I would 
not want to give you a hypothetical answer about where this is 
going, but Djukanovic is trying to keep his coalition together. 
He is trying to cope with a significantly increased percentage 
of the population who are now tremendously frustrated by 
Milosevic's boycotts and blockades against the Montenegrin 
people. I think President Djukanovic deserves a great deal of 
credit for trying to walk a very delicate line right now even 
as he is trying to stay inside Yugoslavia.
    Senator Biden. That's a great non-answer, and I appreciate 
it very much. Since I am not a diplomat most people forget what 
I have to say anyway.
    Ambassador Gelbard. I never do, Senator.
    Senator Biden. Djukanovic is looking to cut himself a deal 
so he gets a major piece of the reconstruction that is going to 
go on in the Balkans. Serbia cannot block access now. Boycotts 
are not going to matter.
    I wonder how this is playing in Belgrade. Who is more 
afraid of a referendum; Serbia or Djukanovic? But you have 
answered as you probably should.
    Ambassador Pardew, we talk about supporting a free and open 
media. How do we do that?
    Ambassador Pardew. We work primarily through 
nongovernmental organizations. We have established, as 
Ambassador Gelbard mentioned, ring around Serbia, which is 
using international broadcasts, but we are offering that to 
independent voices in Serbia. We are using international 
facilities and making them available to independent groups.
    Senator Biden. Let me put it another way. We can make 
facilities available. Are we prepared to shut down facilities 
that spew propaganda?
    Ambassador Pardew. We have, Senator.
    Senator Smith. We have. This is the long haul.
    Ambassador Pardew, During the war, during the conflict in 
Kosovo, we and our allies----
    Senator Biden. No, I know that. I am asking, I want to know 
from now.
    Ambassador Gelbard. Well, as far as I am aware, Serb 
television is still being cutoff the EUTELSAT facilities, and 
we have made sure that whenever they made an attempt--and there 
was a brief moment when they got back on another satellite--we 
shut them off those.
    What we are really trying to do, the use of the 
international facilities that Ambassador Pardew referred to, 
particularly RFE, RL, and the ring around Serbia, is a 
temporary measure. What we are trying to do over the long term 
is support an alternative indigenous voice for the Serbian 
people through mechanisms such as ANEM, the network of 
independent radio and television.
    We have funds available that we were just about to deliver 
when the conflict broke out and Milosevic switched them off. 
But we have funds available that we are on the verge of 
providing to them again so that independent television and 
radio can be augmented throughout Serbia. We are supporting 
Montenegrin television and radio so that they can be another 
voice for the Serb opposition and the Serb people, as well as 
of course for the Montenegrin people. And we are looking at 
other means to really augment the capability or startup again 
the capability of free Serbian voices inside of Serbia.
    Ambassador Pardew. Can I add to that, Senator?
    Senator Biden. Yes.
    Ambassador Pardew. The international community is promoting 
the printing of newspapers, previously printed in Kosovo, in 
Macedonia. Those papers are distributed in Kosovo free of 
charge. You will hear later from John Fox of the Soros 
Foundation. They have been instrumental in putting funding into 
independent radio in Kosovo. We encourage that.
    The former Serbian radio and TV in Pristina has been taken 
over by the international community and we have denied access 
to one group to insure no single group dominates broadcasting. 
We do not want a single voice in Kosovo, and we will ensure 
that there are multiple voices to be heard.
    So there are a range of programs ongoing in Kosovo, as Bob 
mentioned.
    Senator Biden. What can we do inside Serbia? For example, 
doesn't Draskovic continue to deny access to Studio B?
    Ambassador Gelbard. No, he has actually given access to 
Studio B--excuse me, given access of Studio B to Radio B-92. My 
understanding is that Radio B-92, one of the independent 
voices, has just re-opened as Radio B-2-92.
    We want Draskovic to open up Studio B to the rest of the 
opposition and that is a message that he will be getting from 
us in the next few days.
    Senator Biden. The last question, if I may, Mr. Chairman.
    Senator Smith. Sure.
    Senator Biden. We all say, myself included, that ultimately 
there is no long-term integration of the Balkans into an 
undivided Europe until Milosevic goes. I wonder whether we are 
saying that too much these days, myself included. Let me be 
more precise.
    As long as there is success in Sarajevo, the commitments 
are real, the civilian police force is put in place, the media 
is not dominated, the reconstruction of Kosovo and Macedonia 
and Montenegro and the surrounding areas really begins in 
earnest, with the European community taking the lead, I do not 
know what Serbia can do under Milosevic's leadership that can 
affect whether or not we succeed in that part.
    In other words, I agree that until the Serbian people have 
come to terms with their leadership and what was done you 
cannot have a solution here. I do not however know what 
Milosevic and an antagonistic Serbia can do to affect about 500 
things we have got to do in the meantime to begin to put 
together economically and politically a larger plan for the 
Balkans.
    Am I missing something here?
    Ambassador Gelbard. Senator, I believe that Milosevic has 
an infinite capability for creating damage. Even while he had 
so many problems at home, he tried to overthrow the Dodec 
government, the moderate Bosnian Serb Government in Republika 
Srpska. We were able to stymie that and Dodec and his 
government emerged strong after the conflict.
    Senator Biden. But what about his ability to provide force 
to back up any effort to provide assistance?
    Ambassador Gelbard. He still has the capability of 
providing force, not in Bosnia, but in Montenegro. And in his 
own perverse way----
    Senator Biden. How can he do that? Be specific?
    Ambassador Gelbard. Through the army.
    Senator Biden. If in fact that occurs, I cannot imagine 
that the international community and KFOR will not come down on 
that effort like a gosh-darn mountainside being blown up. I do 
not understand that. Is there any doubt on the part of the 
alliance that if there is use of military force, of the VJ, in 
Montenegro that we will not use all force available to us to 
take them out?
    Senator Smith. Or are you telling us that we will not?
    Ambassador Gelbard. I am not certain that that is something 
which is in--that is not necessarily in NATO's agreed NATO 
action at this point or when the current mandate terminates.
    What I worry about is that Milosevic survives by creating 
trouble. He is in the worst trouble he has ever been. He is in 
a corner. The economy has collapsed totally. Real wages were at 
the same level as the early 1950's before the conflict and 
right now they have virtually no reserves left. But this is why 
it is imperative to see a change in the regime, to have 
democratic government arrive in Belgrade as a way of having the 
region whole. That is why we consider that to be an imperative 
in our foreign policy.
    Senator Biden. As you know, there has been no one you have 
known in Congress to be more supportive of arriving at that 
conclusion than I. But I like to think of myself as a realist. 
The idea that we are going to produce a democratic government 
in Serbia between now and the end of the year is about as 
likely as this podium getting up and walking to the back of the 
room.
    What I want to sort of disabuse everybody of here is a new 
State Department-arrived at notion that through State 
Department speak we are going to arrive at something that is 
not possible. The most likely way to catch Milosevic is by 
literally going in, getting him and dragging him to The Hague. 
If we had a brain in our collective heads, that is what we 
would do.
    But we are not going to do that because our European 
friends lack the will, and we will lack the willingness to push 
that initiative forcefully.
    So I just hope we make it clear that the idea that he may 
be alive and well in Serbia does not impede us from pursuing 
all our other objectives in the meantime. If they want to 
wither on the vine and die, so be it.
    Which takes me to a question relating to, humanitarian 
financial assistance. We are not providing financial assistance 
or reconstruction aid, but rather humanitarian assistance. I 
think that is a very fine line to draw. We should be very aware 
that his ability to create mischief and gain credibility will 
relate to how tightly we monitor that.
    How do we prevent Milosevic from claiming credit for 
Western assistance to Serbia, particularly when the media is 
still not a free media? I am not asking you to respond because 
it is unfair. If you would like to, I welcome it. But I think 
this is not over until he is gone. But we cannot assume as long 
as he is gone we can hedge our assessment of what we are able 
to do outside of Serbia.
    Senator Smith. I would like to follow onto what Senator 
Biden is saying here. One of the reasons that I voted to 
support President Clinton and the allies in this action in 
Kosovo was my belief that if Milosevic could work this kind of 
mischief we would be pinned down in Bosnia for a long, long, 
long time, and that by defanging his military we could go home 
earlier.
    Is that a naive belief on my part?
    Ambassador Gelbard. Well, first to answer Senator Biden's 
question----
    Senator Smith. And by the way, I think he is going to 
commit mischief if we are saying that we are not willing to do 
anything.
    Ambassador Gelbard. First to answer Senator Biden, though.
    Senator, I agree with you. That is why we are continuing to 
push ahead on all other initiatives and we are working with the 
Europeans on the Stability Pact, which is a regional effort, a 
regional approach regarding democracy, security, and economic 
development. That is what we feel it has to be, a regional 
focus on every place.
    The line, the fine line you ask about, I agree with you 
again. That is why, again, we are not trying to play games on 
the issue of assistance. We are saying humanitarian assistance 
means food and medicine. We have looked at other types of 
possible assistance, but we feel, as I said in my statement, 
that it is imperative to maintain the isolation with the three 
layers of sanctions: the outer wall, the Kosovo-related 
sanctions, and the wartime sanctions.
    President Clinton and the administration, the entire 
administration, feel very strongly that we should be 
maintaining all these sanctions as a way of maintaining this 
type of isolation because, you are right, it would be very easy 
to begin to blur the line. I know, as you know, Senator, there 
are countries out there that are interested in moving over 
different lines over time.
    Senator Biden. I am worried about us setting the bar so 
high that we build in failure if a year from now there is not 
democracy in Serbia after we keep talking about democratic 
forces. There are not any democratic forces in Serbia now. 
Draskovic is not a democracy.
    I think we should be honest about this. There is a big 
difference between clearing the bridge debris out of the Danube 
so our allies can use it, and building the new bridge. I will 
clear it. I will do everything in my power to make sure there 
is not a cent that can be spent to build it.
    I think they have to come to the realization of what they 
have enabled Milosevic to do. Until there are democratic forces 
there, I do not know who to give the $100 million we voted for 
to. I know what I would like to give it to.
    But we Americans tend to think, whether it was Ronald 
Reagan in Latin America or ourselves in the Balkans, that there 
is some Jeffersonian democrat waiting to spring up somewhere to 
lead a democratic revival.
    There aren't any democrats in Serbia that I have found, nor 
any democratic leadership that has any realistic possibility of 
moving.
    It is a little bit like when the Secretary got mad at me 
when I said months ago to stop talking about Rambouillet, and 
how we want to bring them back to the table. We do not want to 
bring them back. We want to beat them until they stop. That is 
what we want, and that is the only thing that has worked.
    We are in effect saying that we are not going to succeed 
until we have a democratic Serbia. That is ultimate success. 
But I am afraid that if after 4 months, we do not have 
democracy, people will say we should not be spending all this 
money.
    Ambassador Gelbard. Well, in fact I said in my statement 
that in the short term it is hard to imagine that it will be 
able to achieve a democratic solution in Serbia. That is why we 
have to be prepared to support democratic forces. And there are 
democratic forces.
    Senator Biden. There isn't much democratic leadership.
    Ambassador Gelbard. Tomorrow a representative of the 
democratic opposition, Dragoslav Avramovic, will be in Sarajevo 
for the summit. This is a man who is a very high common 
denominator. He is part of the Alliance for Change.
    Vuk Draskovic is a really flawed individual.
    Senator Biden. He is the Rasputin of the 21st century, or 
about to be. We are not quite there yet.
    Ambassador Gelbard. I will tell him you said that.
    Senator Biden. I told him that.
    Ambassador Gelbard. We still hope that he can be part of 
the solution here.
    Senator Biden. I hope so, too.
    Ambassador Gelbard. He is going to take work.
    Mr. Chairman----
    Senator Biden. He is going to take a lot of work. That is a 
very high maintenance fellow.
    Ambassador Gelbard. I know. believe me, I know.
    Mr. Chairman, regarding the question, the Republika Srpska 
has emerged coming out of the conflict, if anything, with 
significantly strengthened moderate leadership. The Dodec 
government is stronger than they were at the beginning of the 
year. They are stronger than they were after the elections in 
September.
    When I last met with Prime Minister Dodec about a month 
ago, he was much more comfortable, much more confident about 
his ability to govern. We are seeing that the extremes, what 
were weakened after the September national elections, are 
becoming weaker still. High Representative Carlos Westendorf, 
whose last day is tomorrow, banished President Poplashin, the 
leader of the Radical Party, from his position and it is now 
very clear that his Radical Party is weaker than ever, as is 
Karadzic's SDS.
    We see prospects for the moderates better than ever and, 
while there is still a ways to go, the prospects look much 
better.
    Senator Smith. Thank you.
    Ambassador Pardew. If I could just comment on the democracy 
issue. We do not have any illusions about who we are dealing 
with here, but I do think democracy is an aspiration of many of 
the Serb people. In that regard, I do not think we ought to 
stop talking publicly about it, Senator. I think we ought to 
continue to discuss it as an issue.
    Senator Biden. I am not saying we should not talk about it. 
I am suggesting we talk about it realistically. It is amazing 
what can happen when you eliminate the extremes.
    The single best thing that ever happened to Republika 
Srpska was when we defeated Milosevic. There isn't any 
alternative left. That is the reason why it happened. It had 
nothing to do with elections. It had to do with the fact that 
Westendorf had the right idea, and that there isn't an 
alternative. Belgrade is no beacon, no help, no place to go. So 
there is no alternative.
    It is amazing what a salutary impact that has upon extremes 
in countries. That is why my dream is to visit Milosevic in 
prison. I mean that sincerely. If you put Milosevic in prison, 
things in the region will change drastically.
    If you said to me you can leave him where he is or give him 
a plane ticket to take off like the former leader of Uganda, 
Idi Amin. I would say no, leave him there until we get him. Put 
him in jail.
    Short of that, I do not know how we get to that point. And 
by the way, I often wonder. Karadzic is part of the SDS. The 
only misnomer in that, they should have dropped the ``D''. I 
mean, these guys are bad guys, bad guys. They are no good.
    Senator Smith. When Senator Biden makes that visit to that 
prison, I want to be your junior companion.
    Gentlemen, thank you very much for your testimony. We 
appreciate it.
    Senator Biden. Thanks.
    Senator Smith. We will call now our second panel. That 
panel will consist of Sonja Biserko, Father Irinej, and John 
Fox, and Jim Hooper.
    We are pleased to be joined by Senator Santorum. Senator, 
if you have any opening statement we welcome that.
    Senator Santorum. Just here to listen to witnesses, and I 
appreciate the opportunity to be here and participate.
    Senator Smith. Terrific.
    Ms. Biserko, why do we not begin with you, and we will just 
move this way across the dais.

STATEMENT OF SONJA BISERKO, CHAIRPERSON, INTERNATIONAL HELSINKI 
              COMMITTEE FOR HUMAN RIGHTS IN SERBIA

    Ms. Biserko. Distinguished Senators, ladies and gentlemen--
--
    Senator Smith. You can pull the microphone real close to 
you.
    Ms. Biserko. I am honored to be with you today. I thank you 
very much for your invitation to participate in this important 
hearing.
    In my remarks I will concentrate on three aspects of the 
current situation: developments in the aftermath of the NATO 
military campaign, the current political landscape in Serbia, 
and possible options of further developments.
    Developments in Serbia in the aftermath of the NATO 
campaign. The NATO military campaign has changed the course of 
events in Yugoslavia. It seems to have put an end to the 
Serbian regime's adventure. The NATO action has also galvanized 
the overall internal dynamics in Serbia. What we now witness in 
Serbia is the release of accumulated frustration, anger, and 
confusion.
    This is especially true of provincial regions, which have 
suffered greatest misery and the greatest mobilization during 
the recent Serbian operation in Kosovo. Belgrade itself is at 
this moment politically the most conservative and centralist 
oriented.
    However, we have to be aware that the frustration, anger, 
and confusion have not yet led to the political awakening of 
the Serbian population and its political and intellectual 
elite. The major reason behind this situation is almost total 
identification of the population and its elite with the Greater 
Serbia Project. Unfortunately, the Serbian imperial aspirations 
to dominate the Balkans, although militarily defeated, have not 
yet been mentally rejected. The people in general still 
experience the military defeat as ``the moral defeat of NATO, 
the European Union, and the United States,'' the international 
protectorate over Kosovo as a foreign occupation and not as a 
result of the failed and aggressive policies of Belgrade.
    The official media has developed the notion, widely 
accepted, that NATO member countries are morally obliged to 
reconstruct Serbia. This also explains the recent refusal of 
Milosevic to allow transitting of the Danube unless all eight 
bridges be reconstructed.
    There is no room yet, therefore, for factual and objective 
analysis of the recent past and of the responsibility in 
general for the suffering caused to the neighboring countries 
and to the Serbian people itself. The long-term policy of 
aggression, compounded by isolation and the effect of bombing 
campaign, have led to state of anarchy and dysfunction of the 
entire political, judicial and moral system. Serbia lives in a 
limbo which can easily be manipulated with opening space for 
different scenarios for the future.
    Political landscape and its protagonists. In such 
circumstances, major protagonists on the political scene are: 
still Milosevic himself; his ruling party, Socialist Party; and 
his wife's party; two pro-Milosevic opposition parties, 
Radicals led by Seselj and SPO, led by Vuk Draskovic; other 
opposition parties organized in different coalitions; the 
military; the Serbian Orthodox Church; and the intellectual 
elite, mostly represented in the Serbian Academy.
    Milosevic's maneuvering space has been greatly reduced, 
especially after the indictment by The Hague War Crimes 
Tribunal and his total international isolation. Being thus 
straightjacketed, Milosevic is still capable in his lust for 
power and desperation to pull down Serbia into even deeper 
repression and violence.
    In that respect it is most important to get the situation 
in Kosovo under full control as soon as possible, as well as 
foreclose any possibilities of suppressing Montenegro's careful 
moving away from the retrograde Belgrade politics. NATO's 
warnings to Belgrade to keep its hands off Montenegro are of 
utmost importance.
    One cannot exclude that Milosevic still counts on the 
Russian card, which provides Russia with a very strong foothold 
in the Balkans and an important leverage in its political 
bargaining with the West. As for the others, Seselj or the 
like, time may come if Serbia becomes more radicalized, which 
has to be prevented. Draskovic is once again unpredictable and 
unreliable. In his inconsistency, he best reflects the fluidity 
of the situation by still balancing between sides.
    The opposition, mainly the recently formed Coalition for 
Change, steps up demonstrations and rallies around Serbia with 
the aim to provoke a general rebellion. It calls for a change 
of the regime, the removal of Milosevic, and early elections. 
Up to this moment they have not taken any stand on the causes 
of Serbia's downfall, concentrating on putting all the blame on 
Milosevic alone. They have not articulated any alternative 
vision for the future, nor have they recognized their 
accountability regarding the past.
    The highest military has sided with Milosevic, but that 
reserve forces have protested, demanding to be paid. There are 
no firm indications, but there are speculations that the 
younger officers may be restless and perhaps attracted to more 
radical changes.
    The Serbian Orthodox Church, which had an important role in 
creating Serbian project, has stepped up its anti-Milosevic 
activities and is developing into an even more important 
political player. For the first time in 10 years of destruction 
and horrific atrocities, the church has for the first time 
stated that a major sin has been committed in our name against 
Kosovars.
    The Serbian elite, or most of it, had a very important role 
in the process of organizing the Serbian project, but is still 
very unwilling to come up with its own accountability. Coming 
mostly from the rural background, it remains committed to 
egalitarianism and monism. Market and rule of law is aligned to 
them.
    Possible future options. Notwithstanding the fact that the 
situation in Serbia is not evolving faster and more positively, 
as many would want and expect, the current discontent is bound 
to further ferment. The direction in which this energy is 
channeled will depend on the interrelationship and dynamics 
between different protagonists. The process will be slow and 
there should be no exaggerated expectations in this regard.
    The removal of Milosevic could come only from the inside, 
riding and pushed by the wave of popular discontent. In that 
sense, we may not speak about the following possible scenarios.
    First, I would say the most positive one is the 
establishment of a transition government that would be composed 
of technocrats. This government would prepare the grounds for 
democratic elections in 1 or 2 years time. There should be no 
illusions about the ideological or political profile of such 
government.
    Second, social misery may lead to further radicalization of 
the situation, to calls for law and order, which may prompt the 
military to support some sort of dictatorship. The legal 
framework has already been prepared, including the abolishment 
of university autonomy and restrictions on the media.
    Third, the worst scenario is more violence and some sort of 
a civil war, which many people are now calling for.
    What can the international community do to help bring about 
a peaceful and democratic change in Serbia? It is important not 
to totally isolate Serbia, but to develop a coherent strategy 
of support for democracy-building based on reality and a 
realistic assessment of the situation and of its protagonists.
    This assessment should guide the international community in 
its support for independent media, for social awareness-
raising, for the development of the civil society, and 
ultimately for the emergence of a new democratic political core 
within a firm framework of standards, rules, and 
accountability, some sort of civil protectorate.
    The continuous and more intense work of The Hague War 
Crimes Tribunal and the insistent pressure and monitoring of 
the refugee return in all the successor states of the former 
Yugoslavia remain the cornerstones of this strategy and 
prerequisites of returning the region to normalcy and its 
integration into the European mainstream.
    Distinguished Senators, ladies and gentlemen, I thank you 
for your attention.
    [The prepared statement of Ms. Biserko follows:]

                  Prepared Statement of Sonja Biserko

                serbia in the aftermath of kosovo crisis
    1. In recent weeks Serbia has been in a turmoil. Political scene is 
in disarray and as the situation country-wide is volatile it is not 
easy to predict the future course of events. All options are possible, 
including the worst one, namely massive outburst of wrath and violence. 
What we are in fact witnessing, following the heroic resistance of our 
army against the state-of-art technical-technological aggression, is 
``testing the waters'' between the regime and opposition. The regime is 
widely promoting ``the post-war reconstruction,'' while both sides are 
trying to consolidate their positions in the wake of defeat. In short, 
NATO military campaign has galvanized the internal dynamics but has 
also brought to surface the overall confusion and the contamination of 
the entire population.
    2. By careful analysis of the public discourse it is difficult to 
expect immediate sobering up. Most of the population has been 
identified with the Serbian project. Additionally, with the 
totalitarian mindset it is difficult to create space for analysis not 
only of the recent history but also the meaning of Yugoslavia as the 
common state. The Serbian illusion that Yugoslavia is only enlarged 
Serbia and their lamenting that the whole century has been ``lost'' and 
that the ``loss will be difficult to compensate'' clearly illustrates 
that Yugoslavia has not been seen as the project of other nations. 
Serbs have never acknowledged their expectations and urge to be equal.
    3. Opposition is stepping up demonstrations and rallies Serbia-wide 
and endeavors to provoke general ``rebellion,'' all the while voicing 
demands for the unseating of the regime and calling for snap elections. 
Opposition parties are currently exploiting enormous popular discontent 
and counting on a large scale protests, alike the 1996-97 unrest. But 
other demands, indispensable for inclusion in the reconstruction 
program, failed to be voiced. Likewise there is no recognition of 
massive atrocities in Kosova. Opposition is still split, and there is a 
palpable tension between its Belgrade seats and local committees. 
Belgrade-based centralism and absolute dictatorship of opposition 
leaders often generate discord at the local level, which are apt to 
show a much higher degree of flexibility. The ongoing power-struggle 
did not crystalize new programme. The same old methods are still in 
practice (populism). The new radicalization is also possible calling 
for the ``social minimum.'' Most of the population has not been 
seriously working for last ten years.
    Recently launched initiative, namely citizens signing up a petition 
for Milosevic's resignation, although unlikely to produce that result 
in the short run, is nonetheless an important, fear-liberating action 
for people at large.
    4. As the situation in Serbia is not transparent, but rather fluid 
and open-ended, it is not possible to predict any definite outcome. It 
seems that Vuk Draskovic's inconsistency best reflects that fluidity. 
This most charismatic leader, and self-styled ``international king of 
streets'' has recently stated that ``he is giving another chance to 
Milosevic.'' The future course of events will be most likely decided by 
the very Milosevic. His perception of his own standing will play a 
crucial role in future developments. It seems that he is weighing up 
the general situation, feeling the pulse of people and waiting for the 
unfolding of the Kosovo operation. He still has instruments to 
destabilize the Kosovo operation, either through the Russians, or 
through his loyalists who have stayed out in Kosovo.
    5. Exodus of Serbs from Kosovo, after the entry of international 
troops, and simultaneous return of Albanian refugees and the KLA units, 
have become chips in the vying match between the regime and opposition. 
While the regime insists on the Serbian refugees return, irrespective 
of the current situation in Kosovo, opposition mentions their plight 
solely for self-promotional purposes, and makes no genuine effort to 
assist them. The Serbian Orthodox Church has organized itself and 
remained the only Serbian institution in Kosovo to fill the security 
vacuum under the newly-emerged circumstances. The Orthodox Church, 
which has stepped up its anti-Milosevic activities, is turning into an 
important player in the political developments. After a recent session 
of its Synod the SOC addressed its believers by stating that ``in our 
name a major sin was committed against Kosovars.'' After the Kosovo 
defeat the SOC quickly responded to the new situation. Its priests 
(especially father Sava from Decani) who had stayed in Kosovo during 
the air campaign now play a double role, namely they take both physical 
and spiritual care of the Serbs remaining in Kosovo. Due to the police 
and army departure ``the SOC had to take on the role which it once had 
under the Turkish occupation.''
    According to Father Sava from Decani Monastery (NTV Studio B-7 
July) approximately 80,000 Serbs have left Kosovo. The High 
Commissioner for Refugees Bratislava Morina said (Politika, 6 July) 
that 8,000 have returned to Kosovo. The government is making an effort 
to push back as many as possible Kosovo refugees. Pensioners cannot 
obtain their pensions outside Kosovo, the same applies to car owners 
who are entitled to petrol coupons. Kosovo school children are not 
allowed to register in for the coming school year outside Kosovo.
    Though situation in Kosovo is getting under the international 
control Serbs are still on their way out. The local leader from the 
Serbian Resistance Movement Dusan Ristic said that apart from the 
``Albanian terrorists, the Belgrade regime is also responsible for the 
massive exodus of Serbs.'' Many Serbs from Kosovo (namely Istok, Babusa 
and Prizren) according to their testimonies have been pushed out by the 
Serbian police. Dusko Ristic is also blaming the Serbian leadership 
from Kosovo (SPS, JUL, SRS) for leaving without protecting people they 
have left behind. It is evident that Serbia cannot cope with additional 
refugees and is therefore trying to keep them away. Additionally their 
anger can be crucial in generating the discontent. It should, however, 
also be kept in mind that Belgrade may still expect to get away with 
partitioning. Kosovska Mitrovica may serve as an example.
    6. The Army is another dynamic factor in the Serbian scene at the 
moment. The Army has profiled itself in the first weeks of military 
campaign as a patriotic Army after the years of being humiliated. The 
last defeat is attributed to Milosevic and, of recent, to Russians whom 
they blame for ``betrayal.'' So far the Army anger is generated by 
being unpaid for months. Having in mind the military tradition in the 
Serbian society they might play more substantial role in months to come 
once it becomes clear which line is prevailing.
    7. Developments in Montenegro after President Djukanovic's letter 
on the need to re-define relationship between the two federal units 
clearly indicate that Montenegro is setting the stage for more 
independent status and forging closer links with Europe. However 
growing speculation that the Yugoslav army might attack Montenegro 
should not be wholly discarded. Milosevic's hesitancy to move more 
resolutely against Djukanovic, ``who is trying to backstab Serbia at 
the most critical moment'' indicates the weakness of the Serbian 
regime. In that sense the NATO's warnings to the regime to keep its 
hands off Montenegro obviously play a decisive role. But, the Russians 
might also spring some surprises, as both for them and Serbia, 
Montenegro is much more important than Kosovo. The first meeting 
between the Serbian and Montenegrin ruling coalitions has been more a 
testing on both sides than serious talks. It is worth mentioning that 
Bogoljub Karic in an interview to the daily paper Vijesti (17 July) 
said: ``If there is no substantial agreement between Montenegro and 
Serbia then there is no reason for them to leave. Then we have to see 
how Germany and Austria are cooperating for years and recently Chech 
Republic and Slovakia.'' The similar statement was made by former 
president Lilic few days earlier.
    8. In the meantime the Serbian Academy has also discussed 
concerning the ``tragic status of the Serbian people.'' It is 
highlighted that ``in the momentous changes which happened in the world 
in the last decade, the Serbian nation suffered great losses, and has 
the worst status today, for the politically lost wars were waged for 
the liberation and unification of the Serbian people. The state which 
we in vain considered our homeland, was broken up.'' Some members of 
the Academy also voiced that demand for Milosevic's removal because 
``if he stays Serbia will be the only ghetto-state in Europe and the 
only state to remain outside the European Union.'' But voices of 
dissent were also heard: ``We cannot back the NATO-pursued anti-
Milosevic policy. The ouster of Milosevic and his regime are our 
internal matter, hence the Academy cannot act as an authority above the 
people.'' Unfortunately the Serbian Academy did not muster up enough 
intellectual courage to assume responsibility for the creation of 
Milosevic's regime program. On the contrary it denied the importance of 
the Memorandum as a blueprint for the regime's ideological program. 
Moreover the Academy stated that ``the Memorandum had an essentially 
filo-Yugoslav and anti-Titoist character, amply indicating the weak and 
ruinous state of the 1974 Constitution.''
    9. It is manifest in Serbia that the populace is aware of the need 
for change. But there is also a massive perception that the unseating 
of only one man will not resolve the issue of a viable political 
alternative. The Serbian Academy which essentially has been backing 
Milosevic all the time and has never renounced its Project states that 
``the present-day political scene is dominated by parties and 
politicians with backward ideologies of civil wars, as such defeated by 
the overall progress of the world.'' It goes on to say that ``those 
ideologies, self-styled `left' and `right' are morally compromised, 
historically conservative and bereft of personal authority.''
    10. A genuine democratic and reform potential--imprisoned in the 
political dinosaur called the Serbian Socialist Party--and in some 
parts of the Yugoslav Army is yet to be brought to light. If that 
potential emerged, then its coupling with the massive rallies could 
represent the most painless way to transition, alike the one in 
Republika Srpska or Montenegro. The recent information on Arkan's offer 
to the Tribunal, if true, is the first signal of the inside 
differentiation.
    11. One of th external elements that may influence the internal 
dynamics could be the role of Russians in the whole process. It is 
perilous for the future of Serbia to turn to the Russians, as the last 
refuge, while such a move would provide the latter with an opportunity 
to easily recover their role of ``the leading power.'' By extension the 
Russians are very adroit in exploiting their role in the Balkans: they 
get their dividends for such engagement by the West. Hence the Russians 
take on a double role, the one of instigator, and one of the 
peacemaker. For Milosevic the Russians represent the only point of 
support, although they publicly denounce him. But were they to get 
involved in Serbian developments, like they did in the past, in some 
East European countries, it could possibly lead to Milosevic stepping 
down. But the question is whether the Russians are currently more 
interested in their competition with the NSTO or in the fate of the 
people led astray. Were they to ``assist'' in Milosevic stepping down, 
it would perhaps constitute their first good-will towards the Serbian 
people.
    12. Massive popular discontent for the time being has not found its 
expression in an articulated political vision of Serbia. The political 
elite is still neither ready nor able to assume responsibility. That 
leaves room for the ``wounded beast,'' namely Milosevic's regime to 
engage in the ultimate act of brinkmanship by dragging quickly Serbia 
into total disaster. International community's attempts to ``lure'' by 
various promises the Serbian opposition to Europe might be futile. The 
fact is that all the neighboring countries are under some kind of 
protectorate of international community. Only Serbia is under constant 
pressure, but even that measure proved to be of a limited effect. 
Corruption and lack of scruples of the Belgrade regime seem to be its 
enormous advantage over the Western democracies, and desperation and 
fatalism its most powerful weapon in defying the West.
    13. However, differentiation process has started. For example 
Kosovo Serbs have genuine feeling of recent events in Kosovo but also 
for the whole last decade. There are ample testimonies illustrating 
that but that is only one fragment. Obviously there is not only one 
answer to the current situation. ``Sickness of the society'' is 
profound and therefore needs a long term cure. The society needs help 
in understanding what has happened. Serbia has in the meantime cut off 
all the relations with the world and has become an autistic society 
without real insight in the European mainstream trends. Stereotype 
thinking is still prevailing (for example Germany is still seen as the 
old Second World enemy, conspiracy theories are answer to all our 
troubles--Kouchner is seen as a Serb-hater etc.).
    14. The present political and intellectual elite is completely 
drained, a new one has yet to be articulated. The liberal elite which 
has been marginalized needs support and comeback in order to create 
space for analysis and new modern vision of Serbia. The ongoing outside 
pressure, especially from the neighbouring countries, has an enormous 
impact on the fermentation of the ongoing process. The Stability Pact, 
if seriously applied, will have crucial role in modernizing and 
Europenizing of Serbia.

    Senator Smith. Thank you very much, Ms. Biserko.
    Mr. Fox.

   STATEMENT OF JOHN FOX, DIRECTOR, WASHINGTON OFFICE, OPEN 
               SOCIETY INSTITUTE, WASHINGTON, DC

    Mr. Fox. Thank you, Mr. Chairman, Senators.
    I would first like to thank the committee on behalf of the 
nongovernmental community and for many in the region for the 
forthright and bipartisan approach that you have taken over the 
years on Balkans issues and particularly for the strong support 
that you have given to democratization in Yugoslavia and the 
neighboring countries.
    Slobodan Milosevic is not only the first sitting head of 
state to be indicted as a war criminal by the United Nations. 
He is also by several years the dean of all the leaders in 
Europe and Eurasia. Now that NATO has 100,000 troops deployed 
in the Balkans, and less than 4 years after Mr. Milosevic was 
an honored American guest and guarantor of the Dayton Peace 
Agreement, it is a principle aim of U.S. and European policy to 
see him removed from power.
    After 10 years of resolutely refusing engagement with 
democratic forces in Serbia, the West is urgently reaching out 
to democrats, pseudo-democrats, and even compromised 
nationalists to hasten Mr. Milosevic's departure. In other 
words, the U.S. and Europe are just starting out on a road we 
should have taken a decade ago when Washington was leading the 
way in supporting democratic forces throughout Central and 
Eastern Europe.
    Why did America not seriously engage with embryonic 
democratic forces in the former Yugoslavia much earlier, at low 
cost? The lost list of policy misjudgments and missed 
opportunities is rooted in the dominant view toward 
southeastern Europe throughout much of this decade, that the 
West has no real interest in the Balkans, which is a condemned 
region of murderous ethnic zombies that must somehow be walled 
off from civilized Europe.
    Only with the war in Kosovo has the international community 
abandoned the blood-soaked myth of post-Yugoslav 
exceptionalism, the notion that modern European standards could 
not apply among feuding Balkan tribes, a view that fit nicely 
with the ideology and practice of the region's war criminals.
    I think it is fair to say that if the United States and its 
allies had treated the Rumanian or the Bulgarian or Slovak 
opposition the way we have treated the Serbian opposition, that 
is if they had been left in a cave of isolation after 1989 
without political or material support or international 
partners, governing multi-ethnic coalitions would not now be 
driving those democracies on a Euro-Atlantic track to full 
integration in Western institutions. Without the sustained 
commitment of the U.S. and nongovernmental organizations to 
indigenous democratic forces, destabilizing nationalism and 
anti-reform politics would today be much stronger in those and 
many other countries in the transition region.
    Whereas the practitioners of ethnic terror and repression 
were given free reign in Serbia, Croatia, and much of Bosnia, 
in the rest of Central and Eastern Europe the tested and true 
conditionality of free and fair elections, human rights, rule 
of law, market reform, and good neighbor policies were helping 
to lay the foundation, the strong foundation for the widening 
zone of democratic stability that we see today.
    Last September a leading Serbian democratic activist listed 
five major weaknesses of the democratic opportunity: one, lack 
of unity and a mentality of defeat; two, fear of regime's 
repression; three, lack of funding for regular activities; 
four, belief that Milosevic enjoys the support of the West; 
five, lack of an effective Western strategy in support of a 
democratic Serbia.
    At the same time, the same weaknesses plagued the Croatian 
opposition, which had been left for years in its particular 
cave of isolation and nationalist temptation while Washington 
supported the Tudjman regime and traded favors on Bosnia. 
Following the decisive U.S. policy shift to support Croatia's 
democratic forces last year, most of this list of weaknesses no 
longer apply and the prospects for a democratic transition in 
Croatia at the next elections are increasingly promising. A 
nonviolent democratic transition in Croatia would be a vital 
contribution to democratizing Serbia, as the Tudjman and 
Milosevic regimes not only have maintained a condominia of 
interests in Bosnia, but have politically reinforced one 
another's domestic anti-democratic policies.
    The same pattern could hold true in Serbia and, while there 
is urgency to this challenge, there are not necessarily the 
shortcuts that truly energized Western governments would like 
to find. The strong political will in Washington and in 
European capitals in support of a democratic Serbia has yet to 
be accompanied by the flow of material support that was 
essential to nearly every successful democratic coalition that 
has overcome an authoritarian regime in the past 20 years, 
whether in Eastern Europe, Latin America, Asia, or Africa.
    Of the widely advertised millions of dollars in U.S. 
democratic assistance for Serbia over the past 2 years, only a 
limited stream has actually reached indigenous groups in 
Serbia, and that has gone for civil society and media, not for 
political coalitions. So we must go beyond the technical 
assistance advice that Ambassador Gelbard was describing. He 
explicitly did not talk about material assistance, which has 
been vital to every democratic coalition from Bulgaria to 
Poland and Slovakia in the region.
    The absence of international engagement with the democratic 
forces has had the added effect of increasing the large and 
unsustainable political burden carried by a relatively few 
Belgrade-based civil society and independent media 
organizations in recent years. Because the West's decade of on 
again, off again partnership with the Milosevic regime stirred 
the deepest doubts among the Serbian people and elites about 
what America and Europe truly wanted to see in Serbia, American 
and European policy today must not only be unified, but crystal 
clear.
    Support should be given to the unified democratic coalition 
Alliance for Change, to groups willing to cooperate with it, 
and, as in earlier cases from Poland to Slovakia, individual 
leaders who fail to cooperate with the coalition should not be 
supported. Political and material support should go to 
organizations, not personalities.
    American and European officials should also respect one 
rule in their public and backgrounded statements, which are 
read microscopically in the region: Do not criticize publicly 
the coalition or individual actors within it. U.S. senior 
officials in particular fell into this counterproductive habit 
around the time of the Zajedno demonstrations in 1997 and it 
still has not stopped. Those messages need to be delivered 
privately if this is really ever going to be a partnership.
    The West has successfully delivered its message about the 
linkage of Serbia's future acceptance in the international 
community to the departure of the Milosevic regime. More needs 
to be done, however, to deliver the affirmative message that 
sanctions lifting and economic and political benefits will be 
conditioned, as they were throughout Eastern Europe, on 
democratic governance, market reform, respect for human rights, 
in other words on implementation of the coherent program that 
the democratic coalition must develop and take to the Serbian 
people in order to prevail.
    There is, of course, a particular affliction that much of 
the Serbian opposition as well as the civil society has 
suffered from, an intolerant, often hard line and even racist 
nationalism. Following the war in Kosovo and the war crimes 
committed on a mass scale by thousands of Serb forces, there is 
substantial denial at both the popular and elite level about 
these crimes. There is a poll, recent poll, showing that two-
thirds of the Serbian people do not believe the atrocities took 
place.
    There is instead in many quarters a deepening sense of 
victimization of the Serbian people. Much as many in Serbia and 
in the West would like to move pragmatically past the moral 
issue of individual and political responsibility for war 
crimes, the culture of victimization in Serbia creates a 
practical problem for the opposition. Any successor Belgrade 
government will have to face up to how to treat the indicted 
and harbored war criminals and will not be able to lead Serbia 
into Europe without de-Nazifying the elites.
    Just as the indictment of Milosevic hastened the end of the 
Kosovo war by demonstrating to the Serbian people beyond a 
doubt that the West was finished dancing with this dictator, so 
a meaningful de-Nazification campaign will speed Serbia's 
reforms and integration into the international system.
    Balkan war criminals and their mafias have proved to be 
deadliest enemies of reform and where left in place they have 
managed to keep most of the former Yugoslavia out of Europe. 
Strong linkage between cooperation with The Hague Tribunal and 
international concessions to Serbia must be at the core of the 
West's policy for a sustainable democratic transition to occur.
    I conclude with some specific recommendations that could 
accelerate democratization in Serbia and promote stability in 
the region. The European Union-U.S. visa blacklist of 300-plus 
key officials and regime supporters is proving remarkably 
effective and should be expanded, and I think a corresponding 
honors list of civil society and democratic leaders could be 
created who get multi-entry visas and are invited precisely to 
the events that the Serbian officials are excluded from. This 
should be a major, intensive exchange and targeted travel 
opportunities reaching out into sectors and parts of the 
country in Serbia that we have not reached. We have tended to 
rely more on a Belgrade-centered civil society set. We need to 
go well beyond that into the professions, local government 
officials, and so forth.
    The OSCE should assure that the expelled Serb citizens from 
Croatia that are now living outside the country vote in the 
next Croatian elections and that the ethnic Croat citizens of 
Bosnia do not vote. Humanitarian assistance I think could be 
given on a trial basis through nongovernmental local opposition 
channels, but if that does not work it should be halted.
    We could also support leading nongovernmental organizations 
from the transition countries in Central Europe to work in 
Serbia.
    The arrest of Karadzic and friends, indicted friends, would 
certainly still send a powerful message and effect inside 
Serbia. I think the tribunal should be given the additional 
resources and management to prepare hundreds of indictments of 
high level, mid-level Serb and many Croat officials, security 
figures, and so forth. I think that would have a very salutary 
effect on their transitions.
    So with a strong and enduring U.S.-led commitment on 
democratization in Serbia and Croatia, the withdrawal date of 
NATO forces from the region should be advanced somewhat, as 
should the integration of Europe and the Atlantic community as 
a whole, following indeed the same pattern that America 
promoted in postwar Western Europe and post-cold war Central 
Europe. There really is no third way to this objective, I 
think.
    Thank you.
    Senator Smith. Thank you, Mr. Fox.
    Father, we invite your testimony.

  STATEMENT OF FATHER IRINEJ DOBRIJEVIC, EXECUTIVE DIRECTOR, 
OFFICE OF EXTERNAL AFFAIRS, SERBIAN ORTHODOX CHURCH, BROADVIEW 
                          HEIGHTS, OH

    Father Dobrijevic. Thank you kindly, honorable chairman. I 
would beg the indulgence of the chair to enter the full text of 
this speech into the record.
    Senator Smith. Without objection.
    Father Dobrijevic. My approach will essentially be 
theoretical and practical, as an investigation of a wide 
variety of proposed solutions in light of the contribution of 
the church.
    Honorable Senator Gordon Smith, Honorable Senator Biden, 
and Honorable Senator Santorum, ladies and gentlemen: It is 
indeed my distinct honor and privilege to be able to address 
this august body on behalf of the recently created Office of 
External Affairs of the Serbian Orthodox Church. Kindly permit 
me to begin by congratulating and profoundly thanking the 
Honorable Senator Jesse Helms, Chairman of the Senate Committee 
on Foreign Relations, and his distinguished colleagues, among 
them our honorable chairman, for unanimously passing a bill 
introduced by the Honorable Chairman Helms allocating $100 
million for promoting democracy in Serbia and Montenegro.
    Without the aid of critically needed funding, the process 
of democratization would have been seriously hampered in a 
nation where it is estimated that $30 billion are needed over a 
decade for recovery. Poor economic conditions tend to encourage 
political radicalism and provide a strong impetus for localism 
as a phenomenon, with its attempts to resolve economic problems 
through jobs, taxes to central government and contracts to 
relatively small communities.
    A lesson taken from the Iraqi people clearly indicates that 
they have little or no incentive to drive out Saddam Hussein as 
long as they are kept in poverty. In today's Yugoslavia, 
socioenvironmental concerns such as increased radiation levels 
and mounting toxicity, combined with disastrously low levels of 
social security, rampant unemployment, and a high refugee 
population will continue to destabilize the regions by 
producing a new outpouring of economic immigrants. Without 
extensive foreign economic assistance, it is highly improbable 
that Yugoslavia will be able to recover socially, politically, 
or even culturally.
    The Standing Conference of Canonical Orthodox Bishops in 
the Americas in a recent statement noted: ``The large-scale 
violence and atrocities in Kosovo, as well as the bombing of 
Yugoslavia, have come to an end. Many Albanian refugees and 
expellees are returning to Kosovo. Many Serbs are now fleeing. 
While war appears to have ended in Kosovo, the peace has not 
been won. What lies ahead is the painful and difficult work of 
conflict resolution and reconciliation, rebuilding and 
reconstruction in Kosovo, in Yugoslavia as a whole, and in the 
whole of southeastern Europe. The religious communities of that 
region must take a full and active part in the work of building 
a peaceful and just present and future for all the peoples of 
that region.''
    National self-determination and regional integration, two 
often incompatible trends, are intrinsically tied to the 
building of an internationally acceptable, modern civil 
society. Peace and stability can be fostered only through 
functional and secure social, economic, and political 
institutions. Yet the reconstruction of Kosovo is currently 
being espoused without extending the same to all Yugoslavia 
unless the Serbian people overthrow the Milosevic government, 
while only limited and extended conditions are placed upon the 
full disarmament of the Kosovo Liberation Army, the KLA.
    This contradictory measure undermines reasonable 
integration policies by replacing one repressive system with 
another. The result is evidenced through bitter retaliation by 
Kosovar Albanians as the KLA gains in latitude and the 
relentless persecution of the diminished number of Kosovo Serbs 
and other ethnic minorities. With such solutions in place, 
there can be no victors, only victims.
    Should not there be a moral imperative for the NATO Pact 
countries to offer reconstruction to Yugoslavia, as was offered 
to Germany through the Marshall Plan? Deputy Finance Minister 
Nikos Chrisodoulakis told BBC television that Greece favored 
unconditional reconstruction aid for Yugoslavia: ``If countries 
are given the chance to build their future, then democracy will 
consolidate and totalitarian regimes will leave more easily.''
    As violence is thoroughly incapable of establishing a just 
and enduring peace, so also isolationist policies cannot 
promote a healthy foundation for the building of a stable civil 
society.
    The first step, therefore, is to recognize that the Western 
notion of civil society is culturally specific as the result of 
certain social and historical conditions. Merely exporting or 
imposing Western forms of civil society onto southeastern 
Europe, without cultural substance and understanding, is 
meaningless.
    An essential and perhaps more productive approach to the 
region would be based on comprehension of how indigenous forms 
of social and political association and considerations of 
Western notions of civil society might accommodate local 
environments, rather than replace them. Given this historical 
and cultural context, the Serbian Orthodox Church offers unique 
recourse to the issue of civil society and democratic change as 
a meridian between East and West.
    Whenever governments and elements of civil society are at 
odds with each other, religious leadership retains the unique 
ability to set the foundation for solid regional cooperation 
with other faith communities, nongovernmental organizations, 
and ultimately extending itself to the international community. 
Therefore, in order for peace and stability to effectively take 
root in Kosovo, throughout southeastern Europe and into the 
world, the voice of religious leadership can no longer be 
ignored.
    The faith communities must be an integral part of and an 
equal partner in the peace process, promoting true 
reconciliation, equitable reconstruction, and advocating 
democracy in order to secure the present and ensure the future 
of Kosovo through valid national self-determination and proper 
regional integration.
    The Serbian Orthodox Church under the leadership of 
Patriarch Pavle in general and in Kosovo under Bishop Artemije 
has attempted to promote peace. As a source of moral authority, 
the church represents the preeminent voice of its people, 
offering regional stability and continuity. Therefore, as the 
only institution trusted by the people, the church serves to 
inform the inner psyche of its faithful and transcends the 
narrow constraints of self-serving nationalism.
    In calling upon ``the Federal president and his government 
to resign in the name of the people and for the salvation of 
the people,'' the Holy Synod of Bishops of the Serbian Orthodox 
Church clearly and courageously paved the way for a government 
that would be acceptable to those at home and abroad.
    Often, in areas of conflict resolution, nongovernmental 
organizations and private volunteer organizations have made 
recourse to the local church, through whom access has been 
gained to designated officials of independent-minded 
principalities and other positive opposition forces. For the 
sake of context and historical affirmation, religious leaders, 
such as Archbishop Makarios, who was elected in 1960 as the 
first President of an independent Cyprus, and Archbishop 
Desmond Tutu, who continues to offer a cathartic mechanism in 
opposition to apartheid, serve to affirm the essential role of 
the church in transitional stability in order to rebuild 
fragmented societies rising out from under oppressive regimes.
    Pragmatically, the church, especially in view of a weakened 
and fragmented opposition, can serve as a neutral and fair 
monitoring system, providing a sound and secure basis for a 
national referendum and registration of voters, while averting 
the dangers of a potential civil conflict. Given the 
international proportions of the Serbian Orthodox Church, this 
privilege could be either contained to those citizens residing 
within Serbia and Montenegro proper or duly extended to those 
living in the diaspora.
    One such referendum model might be charged with the task of 
allowing citizens the choice of voting for a republic or a 
constitutional monarchy. The latter maintains a distinct 
historical precedent in Serbia, which at the turn of the 
century, while fostering a strong liberal intellectual 
tradition, enjoyed having freely elected exiled King Peter I as 
its monarch. Today Spain stands to underscore the positive role 
of King Juan Carlos in rebuilding a prosperous nation from a 
dictatorship to a constitutional monarchy.
    With the serious lack of stability in Kosovo, one possible 
option might be a bicameral system of governance similar to 
that of the Government of the United States. One house would be 
established proportionate to its population and maintain 
autonomy. In order to assure a true multi-ethnic state, 
preventing secession and fragmentation while securing regional 
stability, another house would maintain equal representation 
from all ethnic groups.
    It would then follow that from this house the chief 
executive would be appointed, at least provisionally. The 
assent of both houses would be required to effect legislation. 
This approach attempts to reconcile Western concepts of civil 
society with the local environment.
    The American governmental model is one that could be 
readily applied to Serbia and Montenegro, that is to say 
Yugoslavia. However, given its current political, economic, and 
ecological difficulties in the aftermath of a decade of 
violence, Serbia and Montenegro is most likely in need of an 
apolitical transitional government.
    The concept of a technocratic government or government of 
experts has been espoused by groups such as the Council for 
Democratic Changes in Serbia, which advocates a system of a 
cabinet of experts, proportionate to the distribution of the 
Serbian population, two-thirds from Serbia and one-third from 
the diaspora.
    A group of Serbian and Montenegrin economists known as 
Group 17 have come up with a plan, the Pact on Stability in 
Serbia. G17 made the call for a government of ``national 
salvation,'' which is to say the salvation of the people, not 
only in answer to this problem, but directly in response to the 
call of the Serbian Orthodox Church for Milosevic's 
resignation.
    Such a transitional government of experts would give 
itself, depending on the plan, from 1 to 3 to 5 years to effect 
economic reform, revamp the constitution, call for free 
elections, and promote free media, while paving the way for 
Belgrade's eventual accession to the Pact on Stability for 
southeastern Europe, through which the West anticipated 
bringing peace, development, and a free market economy to this 
troubled region.
    One precise mechanism for a potential handover is being 
worked out by G17 in association with the Independent Society 
of Judges of Serbia. Timing is of the essence in all matters 
concerned.
    Properly supported, the Serbian Orthodox Church could fully 
assume its rightful role in society, a privilege denied it for 
the past 50 years. And to end once again with a quote from the 
Standing Conference of Canonical Orthodox Bishops here in the 
Americas: ``If peace is to be won for all of southeastern 
Europe, it is particularly important that the Orthodox Churches 
of the region assume an active and constructive regional role 
in spiritual renewal, economic reconstruction, and humanitarian 
responsibility. It is critically important that the Serbian 
Orthodox Church be given a quick and strong affirmation as a 
key participant in the process of regional reconstruction and 
that this involvement of the Church of Serbia be understood as 
an important starting point for the civil and democratic 
renewal of Yugoslavia.''
    I thank you kindly for your indulgence.
    [The prepared statement of Father Dobrijevic follows:]

              Prepared Statement of Rev. Irinej Dobrijevic

    It is indeed my distinct honor and privilege to be able to address 
this august body on behalf of the recently-created Office of External 
Affairs of the Serbian Orthodox Church.
    Kindly permit me to begin by congratulating and profoundly thanking 
the Honorable Senator Jesse Helms, Chairman of the Senate Committee on 
Foreign Relations, and his distinguished colleagues for unanimously 
passing a bill, introduced by the Honorable Chairman Helms, allocating 
$100 million for promoting Democracy in Serbia and Montenegro. Without 
the aid of critically needed funding, the process of democratization 
would have been seriously hampered in a nation where it is estimated 
that $30 billion are needed over a decade for recovery.
    Poor economic conditions tend to encourage political radicalism and 
provide a strong impetus for ``localism'' as a phenomenon, with its 
attempts to resolve economic problems through jobs, taxes to central 
government and contracts through relatively small communities. A lesson 
taken from the Iraqi people clearly indicates that they have little or 
no incentive to drive out Saddam Hussein as long as they are kept in 
poverty. In today's Yugoslavia, socio-environmental concerns, such as 
increased radiation levels and mounting toxicity, combined with 
disastrously low levels of social security, rampant unemployment and a 
high refugee population will continue to destabilize the region by 
producing a new outpouring of economic immigrants. Without extensive 
foreign economic assistance, it is highly improbable that Yugoslavia 
will be able to recover socially, politically or even culturally.\1\
---------------------------------------------------------------------------
    \1\ According to Miadjan Dinkic, author of the bestseller, The 
Economics of Destruction and a coordinator of Group 17: ``Leaving 
Serbia isolated is a grave error which will sooner or later provoke a 
new war disaster . . . I strongly believe that this was one of the main 
reasons for the violent disintegration of the former Yugoslavia . . .'' 
Dinkic continues by arguing that nobody will be willing to invest in a 
country void of a functional infrastructure. ``Taking this into 
consideration, once the economic interest prevail over an irrational 
war logic, all problems will be easily resolved.'' 21 May 1999, http://
www.g17.org.yu.
---------------------------------------------------------------------------
    The Standing Conference of Canonical Orthodox Bishops in the 
Americas in a recent statement, noted: ``The large-scale violence and 
atrocities in Kosovo as well as the bombing of Yugoslavia have come to 
an end. Many Albanian refugees and expellees are returning to Kosovo. 
Many Serbs are now fleeing.''
    ``While war appears to have ended in Kosovo, the peace has not been 
won. What lies ahead is the painful and difficult work of conflict-
resolution and reconciliation, rebuilding and reconstruction in Kosovo, 
in Yugoslavia as a whole, and in the whole of Southeastern Europe. The 
religious communities of that region must take a full and active part 
in the work of building a peaceful and just present and future for all 
the peoples of the region.'' \2\
---------------------------------------------------------------------------
    \2\ SCOBA Statement on Kosovo and the Balkans, 23 June 1999, http:/
/www.goarch.org.
---------------------------------------------------------------------------
    National self-determination and regional integration, to often 
incompatible trends, are intrinsically tied to the building of an 
internationally acceptable, modern civil society. Peace and stability 
can be fostered only through functional and secure social, economic and 
political institutions. Yet, the reconstruction of Kosovo is currently 
being espoused, without extending the same to all of Yugoslavia--unless 
the Serbian people overthrow the Milosevic government--while only 
limited and extended conditions are placed upon the full disarmament of 
the Kosovo Liberation Army (KLA). This contradictory measure undermines 
reasonable integration policies by replacing one repressive system with 
another.\3\ The result is evidenced through bitter retaliation by 
Kosovar Albanians as the KLA gains in latitude and the relentless 
persecution of the diminished number of Kosovo Serbs continues.\4\ With 
such solutions in place, there can be no victors, only victims.
---------------------------------------------------------------------------
    \3\ As radical post-authoritarian political groups emerge, 
differences from other similar groups as well as the outgoing regime 
are stressed. The moderate Kosovar Albanian political leader who should 
have emerged under normal circumstances was Ibrahim Rugova. However, it 
was inevitable that the radical and violent KLA would win, not only 
because of the policies of Milosevic, but also because of the process 
of political organization in a weak and atomized society.
    \4\ According to ecclesiastical sources (27 July 1999, http://
www.decani.yunet.com/destruction.html), during the month and one half 
NATO/UN sponsored ``peace,'' 130,000 Serbs have become refugees or 
internally displaced persons, which represents \2/3\ of the pre-war 
Serbian population of Kosovo; 150 Serbs have been killed; 200 kidnaped 
and 40 churches [of the 1,657 sacred shrines In Kosovo] have been 
damaged or destroyed in what now appears to be a systematic eradication 
of the Serbian religious and cultural heritage.
---------------------------------------------------------------------------
    Should not there be a moral imperative for NATO Pact countries to 
offer reconstruction to Yugoslavia as was offered to Germany through 
the Marshall Plan? Deputy Finance Minister Nikos Chrisodoulakis told 
BBC Television \5\ that Greece favored unconditional reconstruction aid 
for Yugoslavia. ``If countries are given the chance to build their 
future, then democracy will consolidate and totalitarian regimes will 
leave more easily.'' As violence is thoroughly incapable of 
establishing a just and enduring peace, so also isolationist policies 
cannot promote a healthy foundation for the building of a stable civil 
society.
---------------------------------------------------------------------------
    \5\ 11 June 1999.
---------------------------------------------------------------------------
    The first step, therefore, is to recognize that the ``western'' 
notion of civil society is culturally specific as the result of certain 
social and historical conditions. By merely exporting or imposing 
western forms of civil society onto Southeastern Europe, without 
cultural substance and understanding, is meaningless. An essential and 
perhaps more productive approach to the region would be based on 
comprehension of indigenous forms of social and political association, 
and on considerations of how western notions of civil society might 
accommodate local environments, rather than replace them. Given this 
historical and cultural context, the Serbian Orthodox Church offers 
unique recourse to the issue of civil society and democratic change as 
a meridian between East and West.
    Whenever governments and elements of civil society are at odds with 
each other, religious leadership retains the unique ability to set the 
foundation for solid regional cooperation with other faith communities, 
non-governmental organizations and ultimately, extending itself to the 
international community. Therefore, in order for peace and stability to 
effectively take root in Kosovo, throughout Southeastern Europe and 
into the world, the voice of religious leadership can no longer be 
ignored. The faith communities must be an integral part of and an equal 
partner in the peace process, promoting true reconciliation, equitable 
reconstruction and advocating democracy in order to secure the present 
and insure the future of Kosovo through valid national self-
determination and proper regional integration.\6\
---------------------------------------------------------------------------
    \6\ A resounding example of the same may be witnessed in the 
unwavering position of the monastic communities of Kosovo. On 26 July 
1999, a meeting of Kosovar Albanian representatives with Hieromonk Sava 
Janjic of Decani Monastery was held in Pec. The Albanians expressed 
their trust in the Serbian Orthodox Church as the only constructive 
Serbian factor in establishing peace in Kosovo and Metohia, and as the 
only institution which nurtures friendly relations with the Albanians.
---------------------------------------------------------------------------
    The Serbian Orthodox Church under the leadership of Patriarch Pavle 
in general and in Kosovo under Bishop Artemije, has attempted to 
promote peace. As a source of moral authority, the Church represents 
the pre-eminent voice of its people offering regional stability and 
continuity. Therefore, as the only ``institution'' trusted by the 
people, the Church serves to inform the inner psyche of its faithful 
and transcends the narrow constraints of self-serving nationalism. In 
calling upon ``the Federal President and his government to resign in 
the name of the people and for the salvation of the people,'' \7\ the 
Holy Synod of Bishops of the Serbian Orthodox Church clearly and 
courageously paved the way for a government that would be acceptable to 
those at home and abroad.
---------------------------------------------------------------------------
    \7\ 15 June 1999. Previously, the Church requested the resignation 
of the Milosevic regime in favor of a government of national salvation 
during the student demonstrations in the winter of 1996-1997.
---------------------------------------------------------------------------
    Often, in areas of conflict resolution, non-governmental 
organizations (NGO's) and private volunteer organizations (PVQ's) have 
made recourse to the local Church through whom access has been gained 
to designated officials of independent-minded principalities and other 
positive opposition forces. For the sake of context and historical 
affirmation, religious leaders, such as Archbishop Makarios, who was 
elected 1960 as the first president of an independent Cyprus, and 
Archbishop Desmond Tutu, who continues to offer a cathartic mechanism 
in opposition to apartheid, serve to affirm the essential role of the 
Church in transitional stability in order to rebuild fragmented 
societies rising out from under oppressive regimes.
    Pragmatically, the Church--especially in view of a weakened and 
fragmented opposition--can serve as a neutral and fair monitoring 
system, providing a sound and secure basis for a national referendum 
and registration of voters, while averting the dangers of a potential 
civil conflict. Given the international proportions of the Serbian 
Orthodox Church, this privilege could be either contained to those 
citizens residing within Serbia and Montenegro proper or duly extended 
to those living in the Diaspora.
    One such referendum model might be charged with the task of 
allowing citizens the choice of voting for a republic or a 
constitutional monarchy. The latter maintains a distinct historical 
precedent in Serbia, which at the turn of the century, while fostering 
a strong liberal intellectual tradition, enjoyed having freely elected 
exiled King Peter I (1903-1921) as its Monarch. Today, Spain stands to 
underscore the positive role of King Juan Carlos in rebuilding a 
prosperous nation from a dictatorship to a constitutional monarchy.
    With the serious lack of stability in Kosovo, one possible option 
might be a bi-cameral system of governance, similar to that of the 
government of the United States. One house would be established, 
proportionate to its population and maintain autonomy. In order to 
assure a true multi-ethnic state, preventing secession and 
fragmentation while securing regional stability, another house would 
maintain equal representation from all ethnic groups. It would then 
follow that from this house the chief executive would be appointed, at 
least provisionally. The ascent of both houses would be required to 
effect legislation. This approach attempts to reconcile western 
concepts of civil society within the local environment.
    The American governmental model is one that could be readily 
applied to Serbia and Montenegro, i.e., Yugoslavia. However, given its 
current political, economic and ecological difficulties in the 
aftermath of a decade of violence, Serbia and Montenegro is most likely 
in need of an a-political, transitional government. The concept of a 
``technocratic'' government or government of experts has been espoused 
by groups such as the Council for Democratic Changes in Serbia, which 
advocates a system of cabinet of experts, proportionate to the 
distribution of the Serbian population, two thirds from Serbia and one 
third from the Diaspora. A group of Serbian and Montenegrin economists, 
Group 17 (G17), have come up with a plan--the ``Pact on Stabilty in 
Serbia.'' \8\ G17 made the call for a government of ``national 
salvation,'' i.e., ``salvation of the people,'' not only in answer to 
this problem, but directly in response to the call of the Serbian 
Orthodox Church for the Milosevic's resignation.
---------------------------------------------------------------------------
    \8\ ``G17 `Experts' Ponder The Big Problem--What About 
Milosevic?'', by Milenko Vasovic, a Journalist based In Belgrade, July 
24, 1999, <Copyright> Institute of War & Peace Reporting.
---------------------------------------------------------------------------
    Such a transitional government of experts would give itself, 
depending on the plan from one, to three to five years to effect 
economic reform, revamp the constitution, call for free elections, and 
promote free media, while paving the way for Belgrade's eventual 
accession to the Pact on Stability for Southeastern Europe, through 
which the West anticipated bringing peace, development and a free 
market economy to this troubled region. One precise mechanism for a 
potential hand over is being worked out by G17 in association with the 
Independent Society of Judges of Serbia. Timing is of the essence in 
all matters concerned.
    Properly supported, the Church could fully assume its rightful role 
in society, a privilege denied it for the past 50 years. ``If peace is 
to be won for all of southeastern Europe, it is particularly important 
that the Orthodox Churches of the region assume an active and 
constructive regional role in spiritual renewal, economic 
reconstruction, and humanitarian responsibility. It is critically 
important that the Serbian Orthodox Church be given quick and strong 
affirmation as a key participant in the process of regional 
reconstruction and that this involvement of the Church of Serbia be 
understood as an important starting point for the civil and democratic 
renewal of Yugoslavia.'' \9\

--------------
    \9\ SCOBA Statement on Kosovo and the Balkans, 23 June 1999, http:/
/www.goarch.org.

    Senator Biden [presiding]. Thank you very much, Father. We 
appreciate it.
    Mr. Hooper.

STATEMENT OF JAMES R. HOOPER, EXECUTIVE DIRECTOR, BALKAN ACTION 
                    COUNCIL, WASHINGTON, DC

    Mr. Hooper. Thank you. I request the committee's approval 
to enter the text of my statement into the record.
    Senator Biden. Without objection, it will be placed in the 
record.
    Mr. Hooper. I was elated that Senator Smith decided to hold 
this hearing. I think it could not be more timely. The topic is 
very important. There has been a good turnout. I hope that you 
are in the process of turning the interested members of this 
committee into an informal caucus for the continuing support of 
Serbian democratization. I think they need it and they could 
certainly benefit from it.
    Senator Biden, I am very pleased to see you here. I know 
you have spent more time meeting with members of the democratic 
opposition than perhaps anyone except for Ambassador Gelbard, 
perhaps even more than Ambassador Gelbard.
    I know Senator Lugar is not here, but he continues to be 
very interested in the issue, his writings and public 
statements.
    I want to make the point that Serbian democracy is not just 
another important Washington issue or one aspect of a complex 
Balkan tapestry or whatever, but it is the issue regarding the 
future stability of the Balkans, the viability of the NATO 
alliance, and the leadership of the United States in post-cold 
war Europe.
    Until there is a stable democratic government in Belgrade, 
American troops and those of the allies will have to remain 
stationed in Kosovo, Bosnia, Macedonia, and perhaps elsewhere 
in the region if additional crises and threats arise. Serbian 
dictator Slobodan Milosevic will continue to generate these new 
crises, perhaps in Montenegro or Macedonia or with his own 
remaining minorities in Serbia, all the while seeking to 
manipulate Russia's fragile democracy toward distracting 
confrontations with the West. Each crisis will revive questions 
about the credibility of American leadership and the alliance 
that surfaced in Kosovo and Bosnia.
    I believe the committee understands that and applaud its 
decision to approve the Serbian Democracy Act that was 
discussed earlier. Ambassador Gelbard understands this also. He 
has done more than almost any other U.S. Government official to 
nurture support for the Serbian democratization movement. I 
hope that his well-deserved appointment to the embassy in 
Jakarta will not lead to any decompression in Washington's 
efforts to effectively promote democratization in Serbia.
    A more ominous source of concern, however, is the decision 
by the Secretary of Defense and the White House to relieve NATO 
Supreme Commander Gen. Wesley Clark of his command prior to 
conclusion of his first term. Not only did General Clark do 
more than virtually anyone else in this administration to win 
the war over Kosovo and provide security for Montenegro, but he 
also has come to understand the dynamics, intricacies, and 
nuances of the interrelated set of problems in the Balkans 
better than any other senior U.S. military officer.
    General Clark in my view is paying the price for shaping 
the victory and getting NATO's action right. Despite all the 
predictions made at the time, his bombing of Serbia's 
infrastructure and the military defeat he imposed on Serbian 
forces set the stage for the rebirth of the Serbian 
democratization movement.
    The decision to replace him might well be construed by Mr. 
Milosevic as a repudiation of the tough administration policy 
toward the regime and will undoubtedly embolden Milosevic and 
the Belgrade hardliners. General Clark's Serbian counterpart, 
General Dragolijub Ojdanic, received a promotion and a medal 
for his services.
    It is now more essential than ever, therefore, that the 
United States undertake to provide the hope and the help that 
Serbian opposition democrats require to implant democracy 
there. They now believe that they can win and they have 
demonstrated a greater degree of unity and purpose than at any 
time since the Belgrade street demonstrations of 1996 and 1997 
and a broader countrywide support for that effort. They must 
carry the heaviest burdens of the democratization struggle, but 
they will not prevail without the support of the Western 
democracies.
    As in Poland during the 1980's and Portugal and Spain 
during the 1970's, U.S.-led Western assistance can be critical 
to the outcome of uneven contests between oppressive regimes 
and popular movements. Serbia, however, does present a 
different problem from other Communist-era transitions. 
Decisions made in Moscow will not be made crucial in removing 
Milosevic. He has exploited, but never depended upon, Russian 
support to survive. He thrives, not on imported political 
ideologies backed by foreign military power, but on home-grown 
extreme nationalism, an extension of 19th century Serbian 
nationalism and 14th century myths.
    Removing Milosevic is the first step toward ending the 
manipulation of potent ultranationalist and ultraracialist 
ideas by Serbian leaders. The second step is the establishment 
of stable democratic structures and institutions of civil 
society strong enough to tape this nationalism so that NATO 
need not contain it externally military force.
    The Alliance for Change and other political movements offer 
the best hope for achieving democratic change. It does no 
disservice to their cause to note that some of the political 
parties and leaders who make up the alliance have made mistakes 
of judgment. Lec Waleca and Mario Soares made their share of 
political errors, too. It is only in retrospect that victory 
appears to have been certain.
    Let us keep in mind that Solidarity had Ronald Reagan and 
Lane Kirkland, to name two, in their corner and Portugal was 
blessed with Frank Carlucci as the activist U.S. Ambassador 
leading an activist embassy staff.
    I am convinced that Serbian democrats have learned from 
their mistakes. Support throughout Serbia for the democratic 
opposition has yet to crest. Serbs are also showing renewed 
interest in free labor unions and other components of civil 
society. We have only to wait for September and October to see 
what the Serbian student organizations will contribute to the 
cause.
    Milosevic appears to take the opposition movement seriously 
as he plays for time, hoping to exhaust the energies of his 
opponents, wait for the opportune moment to co-opt them, and 
resume playing political footsie with Western governments. He 
has drawn the upper echelons of the military into a tight 
embrace, with his indicted chief of staff, military chief of 
staff, projecting the military's backing for his regime as 
support for legitimate elected constitutional authority. He 
hopes to keep the lower ranks, the reservists who have taken to 
the streets to demand back pay for their service in Kosovo, 
passive into next year by offering payments spread over 6 
months.
    He has placed major obstacles in the way of humanitarian 
organizations that seek to provide assistance to the Serbian 
people through democratically elected city councils in some 
towns. The Goebbels-like state-controlled media blankets the 
country with daily installments of ``the big lie,'' and the 
democratically elected Government in Montenegro, a key bastion 
of support for Serbian democratic forces, remains under threat 
from Belgrade.
    What can the United States do to provide hope and help to 
these democratic forces? First, unlike long periods during the 
fighting in Bosnia and until the bombing began in Kosovo, when 
many in the Congress, the NGO community, the media, and the 
American public were at loggerheads with what they perceived as 
administration inactivism on the Serbian democratic front, if 
not outright support for Milosevic, the administration's 
commitment to the replacement of Milosevic by the democracy 
opposition offers significant opportunities for cooperation. We 
should all recognize this and find ways to work together. That 
is the goal of the newly formed Serbia Democracy Coalition, a 
grouping of key NGO's.
    Second, differentiate between the complicity of many Serbs 
in ethnic cleansing, most recently in Bosnia, and the efforts 
of Serbian democrats who want to end it. Do not let the Serbian 
people off the hook in their denial, but recognize that 
democratization offers them the best means of coming to terms 
with the policies that Milosevic has perpetrated in their name.
    In practice, this will require that the Serbian people 
accept that they live in a multi-ethnic state with significant 
numbers of ethnic Albanians, Hungarians, Muslims, Roma, and 
other minorities residing as citizens in Serbia proper. It also 
means coming to terms with the likely permanent loss of Kosovo.
    Third, surround Serbia with functioning, secure 
democracies. The democratically elected Montenegrin Government 
requires a NATO security guarantee to ensure that it can 
withstand persistent Belgrade destabilization, whether it 
chooses to remain in the federation with Serbia or declare its 
independence.
    In Kosovo, the United States should press for a rolling 
electoral process that begins with some municipal elections 
later this year and moves quickly to parliamentary elections by 
spring.
    Croatian parliamentary elections that must be held by 
January promise serious democratization, as democratic forces 
there seem primed to win if it is a free and fair campaign.
    Senator Biden. That is right.
    Mr. Hooper. In Bosnia the United States has made a 
potentially crippling mistake by scheduling a reduction of SFOR 
troop strength by nearly 50 percent. If anything, SFOR needs to 
be increased in order to take the risks necessary to return 
ethnically cleaned refugees to homes in areas where they are in 
the minority, which will pave the way for a resumption of 
democratization efforts.
    Indicted war criminal Radovan Karadzic must also be 
arrested. These two actions will signal to Milosevic that NATO 
is taking Bosnia off the table and increase domestic pressure 
against him.
    Fourth, support the Alliance for Change and other 
democratic parties and movements working in parallel with the 
Alliance to Establish Democratic Government in Serbia. The 
Alliance needs money--relatively small amounts of a few hundred 
thousand dollars can make an enormous difference--and training 
supplied, in the words of the Italian Prime Minister, 
discretely but not clandestinely. Our political party 
institutes, working through the NED, can best provide this, but 
it must be done quickly.
    There is far too much talk of assistance and far too little 
delivery. Days have become weeks, which can easily turn into 
months as AID and the Congress seek a level of comfort on 
disbursement procedures.
    I really want to underline the importance of getting 
funding to the Alliance for these demonstrations. There could 
be more demonstrations today, tomorrow, next week. All it takes 
is--there is a lot of money back here, relative to the 
prevailing situation, in Washington. The funds we are talking 
about are invisible, they are negligible, they are nothing. In 
Serbia they can have an enormous impact.
    The money is here, the Alliance and other political 
groupings are out there that are prepared to use it, and a way 
has to be found quickly to move that there, for computers, for 
vehicles, for posters, for long distance phone calls within the 
country, for fax machines, for gasoline. It is these kinds of 
things that we are talking about, and it does not cost that 
much.
    Fifth, engage the municipalities that are governed by 
democratically elected councils. American humanitarian 
organizations could try to run projects with some of them. If 
the regime refused to cooperate, the democratic opposition 
could turn the issue against Milosevic. American cities could 
establish sister city programs with counterparts in Serbia. We 
might even consider a small pilot program funded at $1 million 
or so for reconstruction efforts in a few of these 
municipalities if we were confident that the United Nations or 
others would not seize this as a precedent to advance much 
larger reconstruction efforts that would benefit the regime.
    Sixth, persuade the AFL-CIO to make a commitment to 
significantly expand its support for Serbia's courageous 
democratic labor movement, modeled on the AFL's assistance to 
the Polish Solidarity movement during the 1980's. The AFL-CIO 
could even work with Serbian unions in partnership with 
Solidarity.
    This would involve programmatic increases of several 
hundred thousand dollars, not tens of millions of dollars. Once 
again, by prevailing standards the funding required is 
incredibly modest.
    Seventh, American religious groups should engage actively 
with members of the Serbian Orthodox Church, which has provided 
intermittent support for the democratic movement, to encourage 
the Serbian Orthodox Church to provide more sustained backing 
for democratization.
    In conclusion, it is important to understand that the 
democratic movement in Serbia is still growing, drawing in more 
supporters, and soon perhaps producing new leaders. 
Democratization has yet to reach critical mass. This may happen 
faster than many people think if the West rolls up its sleeves 
and provides resources needed to reach their goal.
    The price of failure will be high--the indefinite 
stationing of American and allied troops in the region and more 
crises that raise all the familiar dilemmas, policy dilemmas, 
for American administrations of sitting on the sidelines while 
Milosevic continues to destabilize the region or shouldering 
the risks of military and political action to stop him.
    Thank you very much.
    [The prepared statement of Mr. Hooper follows:]

                 Prepared Statement of James R. Hooper

          providing hope and help for serbian democratization
    I want to thank the Committee and Senator Gordon Smith for holding 
these hearings and inviting me to participate. Serbian democracy is not 
just another important Washington issue or one aspect of a complex 
Balkan tapestry. It is the issue regarding the future stability of the 
Balkans, viability of the NATO alliance, and leadership of the United 
States in post-Cold War Europe.
    Until there is a stable democratic government in Belgrade, American 
troops and those of the allies will have to remain stationed in Kosovo, 
Bosnia, Macedonia and perhaps elsewhere in the region if additional 
threats arise, Serbian dictator Slobodan Milosevic will continue to 
generate new crises, perhaps in Montenegro or Macedonia or with his 
remaining minorities, all the while seeking to manipulate Russia's 
fragile democracy toward distracting confrontations with the West. Each 
crisis will revive questions about the credibility of American 
leadership and the alliance that surfaced in Kosovo and Bosnia.
    I believe the Senate understands that, and applaud its decision--
undertaken with the leadership of members of this Committee--to send to 
the House of Representatives the Serbian Democracy Act. Once signed 
into law, it will encourage the Serbian people to anticipate a post-
Milosevic era in which Serbia is no longer governed by indicted war 
criminals but by democratically elected officials not in the thrall of 
the virulent ultranationalism that has become pervasive under 
Milosevic.
    Ambassador Gelbard understands this also, and has done more than 
almost any other United States government official to nurture support 
for the Serbian democratization movement. I hope that his well-deserved 
appointment to the embassy in Jakarta will not lead to any 
decompression of Washington's efforts to effectively promote 
democratization in Serbia.
    A more ominous source of concern is the decision by the Secretary 
of Defense and the White House to relieve NATO Supreme Commander 
General Wesley Clark of his command prior to the conclusion of his 
first term. Not only did Gen. Clark do more than virtually anyone else 
in this Administration to win the war over Kosovo, but he also has come 
to understand the dynamics, intricacies and nuances of the interrelated 
set of crises in the Balkans better than any other U.S. military 
officer. General Clark is paying the price for shaping the victory and 
getting NATO's action right. Despite all the predictions made at the 
time, his bombing of Serbia's infrastructure and the military defeat of 
Serbian forces were the cause of the rebirth of the Serbian democratic 
movement. The decision to replace him might well be construed by 
Milosevic as a repudiation of the tough American policy toward the 
regime and will undoubtedly embolden Milosevic and the Belgrade 
hardliners. Clark's Serbian counterpart, General Dragoljub Ojdanic, 
received a promotion and a medal for his services.It is now more 
essential than ever that the United States undertake to provide the 
hope and the help that Serbian opposition democrats require to implant 
democracy there. They now believe that they can win and have 
demonstrated a greater degree of unity and purpose than at any time 
since the Belgrade street demonstrations of 1996-1997. They must carry 
the heaviest burdens of the democratization struggle, but they will not 
prevail without the support of the Western democracies. As in Poland 
during the 1980s and Portugal and Spain during the 1970s, U.S.-led 
Western assistance can be critical to the outcome of uneven contests 
between oppressive regimes and popular movements.
    Serbia, however, does present a different problem from other 
communist-era transitions. Decisions made in Moscow will not be crucial 
in removing Milosevic. He has exploited but never depended upon Russian 
support to survive. He thrives, not on imported political ideologies 
backed by foreign military power, but on homegrown extreme nationalism, 
an extension of nineteenth century Serbian nationalism and fourteenth 
century myths.
    Removing Milosevic is the first step toward ending the manipulation 
of potent ultranationalist and ultraracialist ideas by Serbian leaders. 
The second step is the establishment of stable democratic structures 
and institutions of civil society strong enough to tame this 
nationalism so that NATO need not contain it externally by military 
force.
    The Alliance for Change and other movements offer the best hope for 
achieving democratic change. It does no disservice to their cause to 
note that some of the political parties and leaders who make up the 
Alliance have made mistakes of judgment. Lech Walesa and Mario Soares 
made their share of political errors too. It is only in retrospect that 
victory appears to have been certain. Let us keep in mind that 
Solidarity had Ronald Reagan and Lane Kirkland in its corner, and 
Portugal was blessed with Frank Carlucci as the U.S. ambassador leading 
an activist embassy staff.
    I am convinced that Serbian democrats have learned from their 
mistakes. Support throughout Serbia for the democratic opposition has 
yet to crest. Serbs are also showing renewed interest in free labor 
unions and other components of civil society. We have only to wait for 
September and October to see what Serbian student organizations can 
contribute to the cause.
    Milosevic appears to take the opposition movement seriously as he 
plays for time, hoping to exhaust the energies of his opponents, wait 
for the opportune moment to co-opt them, and resume playing political 
footsie with Western governments. He has drawn the upper echelons of 
the military into a tight embrace, with his indicted chief of staff 
projecting the military's backing for his regime as support for 
legitimate elected constitutional authority. He hopes to keep lower 
ranks of reservists who have taken to the streets to demand back pay 
for their service in Kosovo passive into next year by offering payments 
spread over six months. He has placed major obstacles in the way of 
humanitarian organizations that seek to provide assistance to the 
Serbian people through democratically elected city councils in some 
towns. The Goebbels-like state-controlled media blankets the country 
with daily installments of The Big Lie. And the democratically elected 
government of Montenegro, a key bastion of support for Serbian 
democratic forces, remains under threat from Belgrade. What can the 
United States do to provide hope and help to these democratic forces?
    1. First, unlike long periods during the fighting in Bosnia and 
until the bombing began in Kosovo, when many in the Congress, NGO 
community, media and the American public were at loggerheads with what 
they perceived as Administration inactivism on the Serbian democratic 
front, if not outright support for Milosevic, the Administration's 
commitment to the replacement of Milosevic by the democratic opposition 
offers significant opportunities for cooperation. We should all 
recognize this and find ways to work together. That is the goal of the 
newly-formed Serbia Democracy Coalition, a grouping of key NGOs.
    2. Differentiate between the complicity of many Serbs in ``ethnic 
cleansing,'' most recently in Kosovo, and the efforts of Serbian 
democrats who want to end it. Don't let the Serbian people off the hook 
in their denial, but recognize that democratization offers them the 
best means of coming to terms with the policies that Milosevic has 
perpetrated in their name. In practice, this will require that the 
Serbian people accept that they live in a multiethnic state, with 
significant numbers of ethnic Albanians, Hungarians, Muslims, Roma and 
other minorities residing as citizens in Serbia proper. It also means 
coming to terms with the likely permanent loss of Kosovo.
    3. Surround Serbia with functioning, secure democracies. The 
democratically elected Montenegrin government requires a NATO security 
guarantee to ensure that it can withstand persistent Belgrade 
destabilization, whether it chooses to remain in the Federation with 
Serbia or declare its independence. In Kosovo, the United States should 
press for a rolling electoral process that begins with some municipal 
elections later this year and moves quickly to parliamentary elections 
by spring. Croatian parliamentary elections that must be held by 
January promise serious democratization, as democratic forces there 
seem primed to win if the campaign is free and fair. In Bosnia, the 
United States has made a potentially crippling mistake by scheduling a 
reduction of SFOR troop strength by nearly 50 percent. If anything, 
SFOR needs to be increased and ordered to take the risks necessary to 
return ``ethnically cleansed'' refugees to homes in areas where they 
are in the minority, which will pave the way for a resumption of 
democratization efforts. Indicted war criminal Radovan Karadzic must 
also be arrested. These two actions will signal Milosevic that NATO is 
taking Bosnia ``off the table'' and could increase domestic pressure 
against him.
    4. Support the Alliance for Change and other democratic parties and 
movements working in parallel with the Alliance to establish democratic 
government in Serbia. The Alliance needs money--relatively small 
amounts of a few hundred thousand dollars can make an enormous 
difference--and training supplied, in the words of the Italian prime 
minister, discreetly but not clandestinely. Our political party 
institutes working through the NED can best provide this, but it must 
be done quickly. There is far too much talk of assistance and far too 
little delivery; days have become weeks which can easily turn into 
months as AID and the Congress seek a level of comfort on disbursement 
procedures.
    5. Engage the municipalities that are governed by democratically 
elected councils. American humanitarian organizations could try to run 
projects with some of them; if the regime refused to cooperate, the 
democratic opposition could turn the issue against Milosevic. American 
cities could establish sister city programs with counterparts in 
Serbia. We might even consider a small pilot program funded at one 
million dollars for reconstruction efforts in a few of these 
municipalities if we were confident that the U.N. would not seize this 
as a precedent to advance much larger reconstruction efforts that would 
benefit the regime.
    6. Persuade the AFL-CIO to make a commitment to significantly 
expanded support for Serbia's courageous democratic labor movement, 
modeled on their assistance to Polish Solidarity during the 1980s. The 
AFL-CIO could even work with Serbian unions in partnership with 
Solidarity. This would involve programmatic increases of several 
hundred thousand dollars, not tens of millions. Once again, by 
prevailing standards, the funding required is incredibly modest.
    7. American religious groups should engage actively with members of 
the Serbian Orthodox Church, which has provided intermittent support 
for the democratic movement, to encourage more sustained backing of 
democratization.
    In conclusion, it is important to understand that the democratic 
movement in Serbia is still growing, drawing in more supporters and 
soon perhaps producing new leaders. Democratization has yet to reach 
critical mass. This may happen faster than many people think, if the 
West rolls up its sleeves and provides resources needed to reach their 
goal. The price of failure will be high: the indefinite stationing of 
American and allied troops in the region and more crises that raise all 
the familiar dilemmas of sitting on the sidelines while Milosevic 
continues to destabilize the region or shouldering the risks of 
military and political involvement in stopping him.

    Senator Biden. Thank you very much, Mr. Hooper.
    We have been joined by two of my colleagues who are not 
members of this committee, but I am anxious to give them an 
opportunity to ask questions. The distinguished Senators from 
Pennsylvania and Ohio are here.
    I will begin, and I will not take the full 10 minutes and 
then yield to my colleagues and come back for additional 
questions.
    Let me start by saying, Ms. Biserko, I want to publicly 
acknowledge, and I hope it does not hurt you, how courageous 
you have been. I think that the service that you have provided 
for the world here has been significant. Although I found your 
statement pessimistic, I must admit I share your degree of 
pessimism about what is likely to happen in the near term 
absent some serious turn-around. I will have some questions, 
but I just want to acknowledge how much I appreciate your being 
here.
    Also, Messrs. Fox and Hooper, as they say, you were there 
before it was fashionable to be in the Balkans. You 
underestimate the impact you have had on the thinking of a lot 
of people here in this town, and I compliment you for the 
honorable way in which you voiced your disagreement to policies 
when you were in the administration. I mean that sincerely.
    Father, it is an honor to have you here. I am of the view 
that the Serbian Orthodox Church has the potential to play an 
incredibly positive role if it so chooses and if given the 
opportunity. I do not suggest it has the same influence as the 
Roman Catholic Church had in Poland, but it does have an 
exceptional capacity to impact events.
    I would like to begin by making a statement relative to 
something you said, Father, and then invite your response if 
you would like. I can understand your frustration and, although 
you did not display any, possible anger at what you probably 
perceive to be a double standard in rebuilding Kosovo and not 
Serbia. You compared it to what we did in Germany.
    I would like to suggest to you that there was a 
fundamentally different situation in Germany. We occupied all 
of Germany. We took over the institutions. We initiated the 
Marshall Plan when there were four sectors in Germany, 
controlled by the victors. There was a Konrad Adenauer. I do 
not see one arising at this moment in Serbia. There were other 
significant democratic leaders, and the condition upon which 
the Marshall Plan went forward was absolute evidence of 
democratization, not a promise of democratization, but absolute 
evidence of democratization.
    So I would respectfully suggest that, although I do not 
rule out the possibility and hopefully, if things move 
properly, the probability of the West uniting with other donor 
nations to rebuild Serbia, I do respectfully suggest that what 
Mr. Fox has said was already under way. The de-Nazification of 
Germany, the forceful requirement that the Germans recognize 
Wagner was not a politician, that heroic notions of German 
ultranationalism were mistaken, and the other requirements that 
the German people had to come to terms after watching the 
Nuremberg trials.
    So I do not expect you are suggesting that we should do any 
of those things in Serbia, that is either occupy Serbia, or 
have show trials in the literal sense like the trials that took 
place in Nuremberg. Nor are you suggesting that there is a 
Konrad Adenauer or others like him present.
    I believe your commitment to democratization. I believe 
that is what the church wants. I am trying to figure out how 
can you use the potentially significant influence of the church 
to promote that. Let me end by being very specific. When the 
recent protests, which have not reached the level of the 
protests that took place after Milosevic negated the municipal 
elections several years ago, were taking place, the leader of 
the opposition said that, he hoped in 10 days all of the bells 
in Serbia would ring in unison as a sign to Milosevic that 
there was unity on the issue that he should leave.
    To the best of my knowledge, not a single Serbian Orthodox 
Church bell rang. Is there a reason for that?
    Father Dobrijevic. I thank you for your kind observations, 
and if you will permit me respectfully to respond. My remarks 
were predicated in great part on my personal experience living 
in Yugoslavia during the academic year of 1996 and 1997. I was 
there at the invitation of His Holiness Patriarch Pavle to 
teach at the Graduate School of Theology in Belgrade, and that 
entire academic year was thoroughly destroyed because of the 
good work and the good intentions of the students demonstrating 
on the streets of Belgrade, trying to usher in democracy and 
reform.
    It was precisely at that time when there was a throng of 
students, of mainstream intellectuals and the church present 
together on the streets, trying to somehow topple the Milosevic 
government and at best perhaps gain the attention of the West 
in joining them in their efforts. They feel completely 
demoralized and they feel that they have been clearly let down 
in the course of their actions.
    I think this is why today we are witnessing demonstrations 
only peripherally. There are no demonstrations in Belgrade. 
They are everywhere save Belgrade and very limited in Novi Sad. 
I believe that this is one of the keys. They feel that they 
have been let down.
    And, with all due respect, not only that I subscribe to 
this mind set, but I do state it for the record, that the 
Serbian people as a whole do feel that the NATO forces during 
the course of their campaign and now with their presence are an 
occupying force. One must come to terms with this mentality in 
order to help break it down if it is not so.
    Senator Biden. I think in truth we are right now. There is 
an occupying force.
    Father Dobrijevic. So that must be stated, I think, for the 
record. With this in mind, having watched these people and 
having seen them, having been there during the course of the 
bombing and seeing this blank, lifeless look on the people on 
the streets of the city, in the institutions, everywhere you 
go, I feel very strongly committed to the fact that if they are 
not given adequate and proper economic support they will never 
be able to usher in democracy.
    This is why I entered my remarks as I did.
    Senator Biden. I want to state for the record, I have a 
deep abiding faith that if the Serbian people, who have been 
denied the control of the media, had an honest, clear look at 
what Milosevic did in their name, they would be revolted by 
what has happened.
    My avocation is theology. I happen to be fairly 
knowledgeable about the Serbian Orthodox Church. The only other 
thing I ever thought of doing was wearing a collar like you 
have, only a Roman one. And I find that you have been in a 
very, very delicate position, not unlike the Roman Catholic 
Church was in Poland during the Communist period.
    We all give the Roman Church a great deal of credit for 
what has happened in Poland, and they deserve it. But there 
were long periods where the ability to speak out and act on 
their right moral instincts, was either muffled or avoided.
    The Serbian Orthodox Church has a phenomenal opportunity 
now. We would be forever in your debt if the kind of moral 
leadership it is capable of could be exerted now. I do not want 
to overstate what I think to be the responsibility of the 
church, nor do I want to overstate what I believe to be the 
capacity of the church, even if it does everything correctly. 
Nor do I want to suggest that there is a clear path as to how 
to do it.
    I would suggest, Father, that there is a dramatic 
distinction between the Marshall Plan in Germany and the 
willingness to rebuild Serbia, absent some concrete movement, 
beyond humanitarian assistance.
    But my time is up. I know it is not orthodox, no pun 
intended, to yield to non-committee members, but these two 
gentlemen have keen interest and are knowledgeable about this 
and I would like to give them an opportunity. I am going to 
come back then, if I may to ask you some specific questions. 
But I yield to my friend from Pennsylvania.
    Senator Santorum. Thank you.
    As the Senator from Delaware knows, this is an issue that 
is very important. We have a large constituency of Serbians, 
Croatians, other people from the Balkans, in Pennsylvania, and 
I wanted to thank Father Dobrijevic for being here. I asked 
some people from the Serbian community in Pennsylvania, as did 
Senator Voinovich in Ohio, and all of them pointed to Father 
Dobrijevic as being a good spokesman for the Serbian community 
here in the United States. So I am glad that the chairman here 
was able to make provisions for you to be able to be here.
    I wanted to followup on your comments and then ask the 
other people on the panel to respond to them. You focused on 
the solution of having the Serbian Orthodox Church take a major 
role, a transitional role. None of the other speakers really--I 
mean, you talked about how we are going to support democracy, 
sort of--and I do not mean to be critical, but sort of 
traditional views, how we would do things here in the United 
States.
    What I heard, from Father Dobrijevic was, this is not the 
United States, this is not Western culture as we know it, and 
we have got to do things differently in Serbia. The suggestion 
is that we need, an idea that I do not think we would have 
advocated, or at least I would not have even thought of, 
something that would be anathema here in the United States, the 
church actually taking a lead role, as you described it, a 
transitional governmental role, where you would have a 
technocracy or a bunch of technocrats and governmental 
officials who would try to transition into democracy.
    A couple of questions. No. 1, Father, how does that happen? 
How do we go from where we are now, and what is the United 
States' role, if any, or NATO's role, if any, in accomplishing 
that, No. 1?
    Then I would like from the panelists a response from you as 
to whether you think this is reasonable or unreasonable. You 
are speaking on behalf of, at least from my understanding, a 
feeling that is held by many Serbians, not just the church, by 
many Serbians here in this country as really the only workable 
solution from their perspective of how this is accomplished.
    I just found it interesting that you would mention it, but 
none of the experts that are observing the situation there have 
brought this to the table. I just want to understand why that 
is the case and why you are suggesting what you are.
    Father Dobrijevic. Thank you, sir. I mentioned it very 
specifically because it is already taking place. It was not 
necessarily that I subscribed the church to play an interim 
governmental role, but to facilitate some sort of an interim 
governmental role, and therein lies the difference.
    How this is taking place already can be seen in the fact 
that all of the opposition leaders are turning to the church in 
order to receive some sort of sanction for their work, for 
their attempts in revamping the government and the structure of 
the government in Yugoslavia. Not only is the opposition 
turning to the church, but it is the populace which turns to 
the church and even, as witnessed in my remarks, Group 17, 
which is a very prominent, an eminent group of economists from 
Serbia and from Montenegro. They are already turning to the 
church and they have initiated their reforms in response to the 
church.
    So we see the key role that the church does play in Serbia 
is trying to usher in democracy. Part of the frustration of the 
church, and why I brought it out so strongly to the forefront, 
is that the church did try desperately to avert the entire 
conflict in Kosovo. Namely, Bishop Artemije, who is the Serbian 
Orthodox Bishop of Kosovo, had visited the United States no 
less than five times and had presented his point of view to 
various levels of the U.S. Government. He had also traveled to 
France and spoke in Paris. He spoke before the Parliament in 
England. He was in Bonn, he was at the Russian Duma, and so on, 
addressing the major governments of the world, trying to tell 
them of the impending dangers and what would happen, what 
disaster would unfold in Kosovo, if this were not averted.
    But nobody heeded the moderate voice of religious 
leadership. Tragically coupled with this is the fact that in 
Vienna on March 18, under the aegis of the Appeal of Conscience 
Foundation headed by Rabbi Arthur Schneier of New York, a 
document was signed, a joint declaration by the Serbian 
Orthodox Church, the Roman Catholic Church, and the Muslim 
leadership of Kosovo, trying to come to some sort of consensus 
to stave off the impending war which everybody foresaw.
    They stated at that time that they categorically reject any 
and all forms of violence and that they would want to bequeath 
to their future generations a legacy of Kosovo which they could 
all jointly take pride in. This is part of the growing 
frustration that this voice, this moderate voice of religious 
leadership, has not been heeded, and the results have been 
rather tragic.
    It is for this reason that the people are naturally turning 
to the church. The Polish model is indicative of the same, I 
believe. So for those reasons I did bring forth the church in 
order to facilitate this interim government.
    Mr. Hooper. I would support a more active role by the 
church in supporting a democratization, a movement toward 
democratization. I think the key here is to sustain that 
support, to make sure that the church is committed, that it can 
provide a context, a backing, a sanction, as Father Dobrijevic 
said, a roof, whatever you want to call it. I think that would 
be very helpful. I hope that would be encouraged by American 
religious leaders, religious groups, Orthodox and non-Orthodox. 
I think there should be more support for that.
    But the key is sustained support by the church for the 
democratization movement. I think that is what is important, so 
that they draw a line with Mr. Milosevic and that regime and 
then do not cross over that line themselves, that they stay on 
the democratic side of that line. I think it is very important 
that it be sustained.
    Mr. Fox. Well, a couple of points. I think, as Senator 
Biden suggested with respect to the Polish church in its 
testing time, there are analogous divisions in the Orthodox 
Church. There is a more accommodationist wing. It is well 
represented, I would say, by the Belgrade representatives. So 
it is not a unified church on these issues. I think that is one 
of the reasons that the bells do not all ring.
    So one could hope for the wing of the church that is 
represented here today prevailing in fact. I think one of the--
and whatever can be done from the international community side 
I think should be done to assist that.
    But I think one of the positive elements of the withdrawal 
of the Milosevic forces from Kosovo is that in fact Bishop 
Artemije now has a role that he did not have before and Father 
Sava has some movement and is being well respected by both the 
U.N. administration and, I must say, the Kosovo Albanian 
leadership. That is all to the good, and I know that is 
something that gives a lot of heart to the Albanian moderates, 
the Kosovo Albanian moderates, who are relying on that.
    But I would have to also respectfully suggest that the 
church's primary impact we could hope would be on the Belgrade 
authorities, and so far that impact----
    Senator Biden. Would be on the what? I am sorry?
    Mr. Fox. On the Belgrade authorities, whether with respect 
to the violence in Kosovo or democratization. And that is much 
less apparent, that there is that impact.
    Ms. Biserko. Well, being an insider, I have some 
difficulties with the role of the church in general, especially 
over the last 20 years, I would say. As you know, they had a 
very important role in mobilizing Serb nationalism and emotions 
over Serbian victimhood. Only 2 years ago, Patriarch Pavle has 
initiated a declaration on amnestying Karadzic, a declaration 
on genocide of Serbs, and these are I would say very important 
points in the church's recent history.
    I would say this is a welcome change in Kosovo that came 
only once Kosovo is lost to Serbia. As you say, Father 
Artemije, accompanied with some other Serbian leaders from the 
region, has been visiting the United States and other European 
states, but only coming up with some sort of plan of 
cantonization, of course, which always hides behind the unitary 
concept.
    Somehow I think that the Serbian church has always been 
very conservative. It is an unreformed church, you know, and 
not very modern, I am afraid. I think that if they could 
restore their moral leadership, which we have a vacuum now of, 
of moral system in general, and that would imply that they 
would denounce all the war crimes, not only in Kosovo, in 
Croatia, in Bosnia, all of the minorities, help refugees return 
and not merely gather them back home to improve our blood in 
Serbia and so on.
    There are a lot of racist positions in church rhetoric over 
the last 10 years, and I would very much welcome their role 
because someone has to play a role. It cannot be a political 
role. They have been linked to this regime. They have been 
linked to the Communist regime. So their history is also very 
discredited, I would say. So in order to have this role we are 
talking about, I think they should do much more.
    Senator Santorum. I would like to give Father Dobrijevic a 
chance to respond to what you have just heard. The fact that 
you are not a united church, the fact that there is not the 
speaking up within Belgrade to the authorities, and the 
comments that Ms. Biserko made, if you could respond to that. I 
know my time is up.
    Senator Biden. No, go ahead.
    Father Dobrijevic. I believe that the church not only has 
articulated its position against Milosevic, not only has it 
called for his resignation and the resignation of his entire 
government, but it has also condemned the ethnic cleansing that 
took place in Kosovo.
    I as a personal translator for Patriarch Pavle when he had 
received many visiting foreign dignitaries, I know for a fact 
that he consistently condemned all of the violence which had 
taken place in Croatia, in Bosnia and Herzegovina, and 
throughout the entire former Yugoslavia. So his voice is a very 
consistent and staid voice. That is why he is highly respected 
as a moral leader and has the authority that he does enjoy 
within not only the Serbian church, but within all the Orthodox 
churches, and I would say within all the population of 
Yugoslavia.
    So the church is not being inconsistent with itself. I 
think it is very consistent. Again, my emphasis was not in 
having the church play some sort of political role, but simply 
to facilitate change. It could be a facilitator for change, and 
I think that everybody is intuitively turning toward the 
church.
    Senator Santorum. My time is up.
    Senator Voinovich. I would first of all like to thank you, 
Mr. Chairman, for having this hearing and giving these 
witnesses an opportunity to share their observations.
    Senator Biden. Thank you for coming.
    Senator Voinovich. I think it is very timely.
    I first of all would like to say that I have been involved 
indirectly and directly with what has been happening over in 
Serbia for the last couple of years. A group of Serbian 
Americans who represented the Serbian diaspora came to me and 
urged me to see if I could provide an opportunity for them to 
meet with our State Department officials to talk about some 
alternative to Slobodan Milosevic, who I have considered to be 
a war criminal for a long period of time, in fact on occasion I 
have been invited to Serbia and have never gone because of the 
fact that he was the leader of the country.
    Unfortunately for probably a couple of reasons, the 
response did not come from our State Department. I would 
probably attribute it to two things: one, that he was the 
President of the country and that meeting with some other group 
perhaps might have jeopardized the State Department's position 
in terms of Milosevic; and I would also like to think that 
maybe the reason is because they thought that they had a handle 
on Milosevic.
    I kept reminding them that he was the problem and that as 
long as he was there what we would all like to see take place 
in Serbia was not going to take place.
    I do not think that when the demonstrations took place that 
we really gave them much help, and they were on their own and 
they were demoralized. So there is not a great feeling there 
about help.
    That is over now and the question is how do we go about 
engendering this and encouraging this alternative leadership 
that we need as quickly as possible. When I was in St. 
Petersburg, as I shared with you, Mr. Chairman, I worked to get 
a resolution passed----
    Senator Santorum. He is not chairman yet. Let us not 
advance him too quickly.
    Senator Biden. Acting minority chairman, who is the only 
member of the committee, which gives me some residual 
authority, but very little, very little.
    Senator Voinovich. As far as I am concerned, you showed up 
today, you are the chairman.
    Senator Biden. I like your attitude.
    Senator Voinovich. But the fact is that as a result of the 
outpouring of concern from many nations in the Balkans about 
the humanitarian and infrastructure needs, a resolution was 
passed that basically urged the Stability Pact nations and the 
54 nations represented at the OECD to encourage humanitarian 
and infrastructure projects in the region, including in Serbia, 
which impacted on the region.
    The reason for it was that they were complaining, the 
Bulgarians, Rumanians, the Hungarians, that we did not really 
understand that what is happening over there has had a dramatic 
negative impact on their respective economies and they would 
like to get going now that the war is over.
    So that resolution passed, and things that were talked 
about were things like cleaning up the Danube, perhaps 
rebuilding one or two bridges that are needed for travel 
through Serbia to move goods, and a few other things. In 
addition to that, there was also talk of humanitarian efforts 
to reach out to the Serbian people, understanding that in 
Serbia you have over 500,000 refugees and another probably 
75,000 to 100,000 may be coming in now from Kosovo, and that if 
humanitarian help is not given that you are going to have some 
real tremendous humanitarian problems in Serbia. And some of 
the adjacent countries said: We are going to have an exodus of 
people out of Serbia who will become refugees in our countries 
because they are not going to be able to get the help in 
Serbia.
    I would like to know from you, how do we best as a nation 
encourage, what things should we be doing now? We have Senator 
Helms' resolution, $100 million. We have Congressman Smith's 
SEED program of $35 million over in the House. What do you 
think we ought to be doing to move this anti-Milosevic or, let 
us put it in the positive, to bring democracy, democratization, 
to Serbia?
    Maybe, Mr. Fox, would you like to start?
    Mr. Fox. Yes. I think it is very important to recognize 
that, as frustrated and disappointed as I think all of us are 
who have been on this account now for however long it has been, 
there is one big difference between what has been done in all 
the countries I named and is now being done in Croatia just in 
the past year with an activist U.S. Ambassador and a complete 
change in policy toward the opposition there, which was 
regarded as weak, nationalist, divided, hopeless, all the same 
attributes--did not have quite the baggage that the Serbian 
opposition has, but quite a bit----
    Senator Biden. A lot.
    Mr. Fox. Not for want of trying in some cases.
    One year ago, the policy changed, 1 year ago. Resources 
went in. NGO's were brought in. The IRI-NDI program was stepped 
up. Ambassador Montgomery has taken a very hands-on approach 
there, and much more active attention to the tribunal, a 
variety of aspects to this.
    But it was good old-fashioned basic baseball 
democratization: campaign assistance; they have worked with 
that coalition, they are whipping them into shape; providing 
resources.
    That has simply not been done in Serbia. It has never been 
done. It has to be stressed that as of today they have not seen 
resource one, material resource one from all of this.
    Senator Biden. Will the Senator yield on that point? We can 
maybe do this in tandem here, because I will not take you off 
point.
    Croatia desperately wants economic integration in Europe. 
We have an ambassador in Zagreb. We have no ambassador in 
Serbia. Could we mechanically do what you suggested in Serbia? 
Could we send in NGO's? How would we get them in? Could we 
physically engage in the way we have in Croatia?
    You are making a comparison which I think is legitimate, 
but mechanically is it a possibility?
    Mr. Fox. I think it is a combination. Well, that is, I 
think the decision on whether and when the U.S. sends back 
representation should be heavily guided by this consideration, 
that if and when we do send a charge back in it ought to be for 
this purpose. I would argue that that is the one consideration 
that would argue for an earlier return.
    But yes, you can do it. As I see it, this is a combination 
of Poland pre-1989 and Bulgaria early 90's and Slovakia over 
the last couple of years. You have it has been, I think, more 
and more accepted in the Serbian opposition that this coalition 
of coalitions approach that was tried in Slovakia, where they 
also had personality disorders in the opposition and the usual 
problems.
    They overcame that and both the NGO's and the opposition 
disciplined themselves quite effectively with judicious outside 
assistance. In Bulgaria, something like a million dollars in 
material assistance went to the Union of Democratic Forces in 
1990. They did not get the endless conferences and how-to and 
so forth. They got some of that. They got computers, faxes, 
vehicles, gasoline. That is what they got.
    They have never gotten that in Serbia. It is what they are 
starved for right now, and those are the building blocks. That 
is how you develop a partnership with an opposition. I think, 
to be fair to them, they have never gotten it. It is an 
egregious situation, frankly, and it still has not been 
corrected as of this moment.
    Senator Biden. Keep going, Senator.
    Senator Voinovich. Father Dobrijevic.
    Father Dobrijevic. I would tend to agree with that. Part of 
the problem, as you have mentioned, is the vast amount of 
refugees who are now located in Serbia and the many more who 
are coming there. Another part of the problem is that there is 
a hidden statistic which often escapes the eye of those who 
come in to monitor refugees, and that is that approximately 97 
percent of all of those refugees are privately housed. So with 
the crippling effects of sanctions on top of everything else 
that has taken place, you have not only a refugee crisis on 
your hands, but you have an entire population which is in 
crisis.
    Having worked in the field of humanitarian aid since the 
beginning of the breakup of Yugoslavia, I understand how 
repatriation demands simple commodities such as computers and 
all the other things which were just mentioned. We see none of 
this pouring into Serbia. We see no incentive for the people.
    On a practical level, the work ethic of the Serbian people 
in Yugoslavia has also been broken, because they often work and 
they never reap the benefits of their labors, they are never 
given wages for the jobs that they have. Many of those who are 
trying to earn a living in Yugoslavia are persons who have been 
internally displaced, not once, but now twice within a short 
span of 4 years, as many of my own family members have, first 
from the Krajina and now again from this situation in Kosovo.
    So it is a violent cycle which somehow has to be broken.
    Senator Voinovich. Father, one of the things that--and we 
talked about this. There is the opinion, and I have really 
talked to some people high up in our government about this, 
that if we do infrastructure say in Serbia or humanitarian aid, 
that that would be helpful to Milosevic and further solidify 
his position.
    I would be interested, what reaction do you think it would 
have if some infrastructure or humanitarian, if there was a 
real outpouring, in terms of his--would he take advantage of 
that or do you think it would result in the opposite happening?
    Father Dobrijevic. Well, of course the pendulum could swing 
either way on that. He could simply take advantage, which he is 
already taking advantage, of the humanitarian aid commodities 
which are coming in. There is a problem now with the 
distribution of medicines, where that has been taken over by 
the Yugoslavia Government and the International Red Cross. So 
that there is always a chance for the abuse of any commodity 
whatsoever.
    I would beg the issue that if you are already distributing 
humanitarian aid, however limited it may be, of what use is it 
for a hospital to receive medical commodities, to receive food 
and bedding and so on, and not have electricity, not have 
running water? Somebody who lives in Pancevo, for instance, who 
depends on crossing the river every day in order to come into 
Belgrade to work, if he cannot come in to work, if he has no 
means to transport himself, he cannot earn a living. What are 
they to do?
    This is part of breaking that vicious cycle, you see. So 
this is why I see the need for economic assistance. 
Infrastructure is intrinsically tied to the question of 
humanitarian aid and the question of rebuilding Serbia.
    Senator Voinovich. Well, some people say, Father, that if 
you do not give it and you do not do the infrastructure, that 
things are going to get so bad and that will accelerate his 
demise.
    Father Dobrijevic. Quite the contrary, I would disagree. I 
think it would so thoroughly demoralize the people that they 
would not be able to rise up against him. You cannot starve 
someone into submission.
    Mr. Fox. We have an interesting case of this in the last 
couple of weeks, and that is Mr. Canac, who is a leading figure 
in the coalition, opposition coalition, based in Novi Sad has 
said: ``Give me a bridge and I will fight the regime.'' The 
Austrians offered him a bridge, a pontoon bridge for Novi Sad, 
and engineers to go with it, and they were denied visas.
    Senator Biden. Denied visas by whom?
    Mr. Fox. Denied visas by Belgrade. They want the bridge 
going through the Belgrade authorities. They demand that all of 
the city to city assistance that the Germans and the British 
and others are trying to provide, the Austrians, is not getting 
in. It is just a trickle.
    The opposition itself is saying, do not do it unless it 
goes through our channels. That is the dilemma. I think this 
has to be tested carefully. In fact, it might well be that the 
Orthodox Church, some of the international Orthodox Christian 
charities and others can play more of a role here on the 
humanitarian assistance. But it has to be accountable, because 
I think those institutions themselves would be damaged if it is 
not.
    Senator Biden. You keep going.
    Senator Voinovich. The one last question is the issue of 
who could provide that, be the facilitator. My head says to me 
that if the humanitarian aid was promised and there were some 
infrastructure projects they were willing to go in, say that 
did not necessarily benefit only Serbia but just say the 
region--let us talk about cleaning up the river, for example--
and it was done by a neutral party, let us say the Orthodox 
Church, and that the condition was that for it to occur that it 
would have to be done through that. Then if it was and it was 
offered and Milosevic came back and said, oh no, we are not 
going to let you have this, we are not going to let you have 
that, do you not think that if it was really well understood 
what it was and that he was standing in the way for it to 
happen, that that would be an added momentum to say to the 
people, we have got to get rid of this man because without it 
we are not going to get this help?
    Mr. Fox. Well, I think that is certainly what I am saying, 
is test it carefully step by step, and then if he tries to stop 
it blow the whistle. But do not go ahead with it, certainly not 
when your democratic partners are saying do not go ahead with 
it.
    Senator Biden. Senator, I think you are on the mark here. 
You and I have had private discussions about this. I do not 
think there is any disagreement that, for example, the Senator 
and I have about either Milosevic or about the need to help the 
Serbian people. I do not think there is any disagreement, 
except on the details.
    I wanted to ask Ms. Biserko here a question. Suppose we 
make a decision that we are going to send in fax machines, what 
we call in American politics walking around money, so that the 
opposition actually had money on the ground to send out faxes, 
to distribute literature, to do basic campaign things.
    Do you think that Milosevic would allow fax machines to be 
sent in to the opposition, or would we have to do them 
clandestinely?
    Ms. Biserko. Well, it has happened so far.
    Senator Biden. What has happened?
    Ms. Biserko. I know people who have fax machines and 
computers, some of us who have been supported from outside. So 
I think that is not the major problem.
    I think humanitarian aid you're referring to has always 
been disseminated by the national Red Cross, by International 
Red Cross, UNHCR, and it was always manipulated to some extent, 
because it is not only refugees who need aid. It is now the 
whole country is a social problem in one way or the other.
    So it is either taken into official stores and then sold 
out, and you always have some profiteers out of that. But I 
think international agencies so far, they always count on that 
to some percentage.
    But I think in this whole discussion my feeling is that 
what we lack is really, what do we do with the republican and 
federal administrations, because these are the only people who 
are skillful in doing something? We are now talking----
    Senator Biden. The only people who what? I am sorry.
    Ms. Biserko. Politically skillful.
    Senator Biden. Politically skillful. I am sorry, I did not 
hear what you said. I understand.
    Ms. Biserko. Even including SDS people and the other minor 
parties. So we are talking about the political opposition, 
which is not yet politically articulate and does not have a 
structure, which we are now through your help trying to 
buildup. This is something which is done by NDI and some others 
from the United States and other countries. So they are just 
learning how to deal with that.
    But people who are professional, highly professional in the 
administration, which should also be looked at, because if you 
have this critical mass being created in the streets of 
discontent of the wider population, which is coming up anyway, 
it can be channeled professionally also with these people, who 
will at one point detect Milosevic because they will understand 
that things are going different parts.
    So you have also to focus on these people as well, some of 
them.
    Senator Biden. I apologize for not understanding; by 
``these people'' are you referring to people within the 
Milosevic regime now?
    Ms. Biserko. Yes, yes, all the structures, in the parties, 
and in his own circle.
    Senator Biden. And you think it is possible to destabilize 
him by dealing with some of them? Is that what you are saying?
    Ms. Biserko. Well, that should be, I should say, done in 
shadow.
    Senator Biden. Yes, I see.
    Ms. Biserko. Because this street sort of critical mass 
coming up, married with this internal sort of dynamics, can 
bring about the positive change.
    Senator Biden. I wanted to ask you something--and please 
interrupt me, Senator----
    Senator Voinovich. No, go ahead.
    Senator Biden [continuing]. Because I would like this to be 
more of a conversation because I am learning something here.
    There is a distinction some are making, I among them, 
between the command level of the VJ and the conscripts, and the 
reservists who were called up--the people who are protesting 
now within the military. In other words, those with the stars 
on their shoulders seem to be very loyal at this moment to 
Milosevic? For reasons that they may get tried next and 
indicted next, but they seem to be very loyal.
    There is at the lower levels within the military some real 
discontinent. Is the discontent because they are not getting 
paid?
    Ms. Biserko. Yes.
    Senator Biden. Or is the discontent because they would like 
to get rid of Milosevic because they think he has done bad 
things for their country? In other words, do we have any hope 
in the military being any part of an ultimate opposition to 
Milosevic?
    Ms. Biserko. Well, talking about reservists, so far it is 
only discontent for not being paid, because otherwise they 
could have rebelled before the Kosovo operation and they did 
not. So this is now really, at this point it is not yet quality 
in this sense.
    There are some voices from the military, like Perecic, who 
is probably also a war criminal, who said that the Yugoslavia 
army is now being used as a party cell of SDS. So he is 
obviously trying to call for non-party sort of engagement of 
the army, which it was always a party army throughout the last 
50 years, not only now, and even during the Perecic time.
    But this is a voice which at this point may indicate 
something, and they say that he is rather popular in the lower 
ranks in the army. So whether and how much they can deliver, 
this discontent will continue. It will buildup. It does not 
have any other message at this point.
    To remove Milosevic is also something which is widely 
supported now. I would say at one point there is some sort of, 
to scapegoat Milosevic, make him responsible for everything, 
and amnesty all of us for any responsibility, and this is an 
oversimplification. He has to go, and I think that we all have 
to take up our own accountability for what has happened, 
because all these recruits could have stopped army operations 
last year.
    Parents were coming to our office, we have dealt with them, 
and we tried to organize sort of protests in the streets, but 
we did not succeed. We had only five parents standing up. There 
was no mother movement until the moment that young people 
arrived in the coffins back home in Krusevac and other places.
    Senator Biden. As we say unfortunately here, the body bags 
began to come home.
    Ms. Biserko. Only then, once they suffered. The protests in 
Serbia proper especially came as a result of suffering, of 
misery and everything, because they were mostly hit down there. 
As you know, Serbia proper was a stronghold of the SDS and 
Milosevic. So now they hit the bottom and these young men who 
closed down these radio stations and called the people to come 
into streets did what they did.
    But you know, this is quality which has to be worked on 
yet.
    Senator Biden. That is not inconsistent with what Mr. Fox 
is saying, I do not think. There is an old expression: ``better 
the devil you know than the one you do not.'' Here it seems to 
be ``the better the devil you do not know than the one you do 
know,'' here. I thought your analogy in Croatia was an accurate 
one, in the sense that promoting opposition is kind of a 
nurturing process. Is that what you are saying?
    Mr. Fox. Absolutely. I think we tend to forget, even those 
of us who have been involved on the front lines in various ways 
in government and out of government, these oppositions never 
start very well. Some of the ones that are now models of 
transition democracy were replete with very intolerant 
nationalists, people that did not want to allow any minority 
parties to register, et cetera, et cetera.
    We had leverage on these oppositions because we were doing 
things for them and with them. We were giving them resources 
that they needed. We could help shape the moderates within the 
coalitions, but work with, whether it is IRI or NDI, the usual 
democracy groups, the Trade Union Institute. That was a vital 
partnership.
    That has been lost, frankly, because we have had so many 
transitions now people have almost forgotten how to do it. 
Frankly, the assistance bureaucracy not only does not encourage 
it, it rather discourages it in the case of the democracy 
groups, which is why we are all arguing for the resources to go 
through the NED, by the way.
    Senator Biden. Through the what?
    Mr. Fox. The National Endowment for Democracy, rather than 
the Agency for International Development.
    Senator Biden. That is the vehicle you believe----
    Mr. Fox. Absolutely, it has to go through the NED, 
absolutely.
    But let us take another case. Let us take Slovakia. Again, 
the shift on Slovakia, real attention to Slovakia, it was not 
there in 1994, it was not there in 1995. It really came when 
Secretary Albright assumed her present position, got some 
serious attention, and we had an ambassador who was very 
engaged and we had NGO's that were very engaged. That was a 
couple of years in the making, and that was a lost case until 
policy changed.
    Senator Biden. Well, I do not want to drag this out and I 
want the Senator to pursue any other area that he would like to 
pursue. But let me say that I do not think anyone disagrees 
that if we could get more NGO's in; if we were able to get more 
direct access to individuals; if I could put it in the parlance 
of Federal relationships with States; if we could go straight 
to the mayors and not through the Governor, no offense, 
Governor, if we could go straight to the county councils and 
not to the State legislature; if we could be in the position to 
go in like we did in other countries for a while in Poland, 
where we went straight to individuals and identified whether 
they were mayors or whether they were opposition leaders or 
whether they were local officials in small villages, and went 
in and assisted them; if we, the European community and 
ourselves, could get in to do that, then it seems to me over 
time it would work.
    We were able to do that in Slovakia. We were able to do 
that in Croatia. I do not see the circumstance where Belgrade 
will allow essentially a mini-Peace Corps to all of a sudden 
invade Serbia. The evidence, I would argue, is the example you 
gave in, was it, west Novi Sad? I forgot the name of the 
leader.
    Mr. Fox. Novi Sad.
    Senator Biden. Where the Austrians said they would build 
Serbia a pontoon bridge, and Belgrade says, they don't want a 
pontoon bridge. Yet Belgrade is saying they want to be able to 
cross the river. So I just wonder how we do that.
    Do you understand what I am saying? If there is opposition, 
I do not think we should fail to try to do that. What is the 
alternative?
    Let me say one last thing and then ask you to comment if 
you wish to any event. Father, it seems to me that the Senator 
from Ohio is correct. The church theoretically could be 
uniquely situated to dispense a lot of this humanitarian aid. I 
am not at all certain, because I think it is accurate what Ms. 
Biserko said. The leadership in Belgrade in the church, and I 
will not make apologies for them, has not been as forthcoming 
as the leadership in Kosovo has in terms of distancing 
themselves from the political leadership, either under the 
Communists or now.
    I am not passing judgment. I am not sitting here saying you 
should have done the following. I am just stating what I think 
is historically factual. It has been very difficult because you 
may get shot or you may get put in prison.
    I am convinced that if there was a mechanism able to be 
worked out where the Orthodox church was a vehicle for 
distribution of humanitarian aid, you would get overwhelming 
support in this place for that to happen.
    Father Dobrijevic. May I respectfully note that the church 
has been a vehicle for the distribution of humanitarian aid. 
The church has its own department for humanitarian aid. It is 
called ``Covekoljublje,'' which means ``Philanthropy,'' and it 
is now presently revamped through the efforts of International 
Orthodox Christian Charities, IOCC. They are now working on the 
ground.
    IOCC is the only organization which maintained an 
expatriate presence in Yugoslavia during the bombing campaign 
and is still there working. They have distributed a substantial 
amount of aid during that time. IOCC is sponsored by all of the 
Orthodox churches here in America and they interface directly 
with the Serbian Orthodox Church.
    Senator Biden. I am aware of that, Father. What I am 
talking about is a much grander scale. What I am talking about 
is the potential for there to be hundreds of millions of 
dollars.
    Senator Voinovich. The problem is that somebody has to put 
the package together.
    Senator Biden. Yes.
    Senator Voinovich. And it is like we are trying to figure 
out what to do, and as we are waltzing time is running out. I 
think that we need to say this is what we are willing to do and 
put it in a package and say this is a major commitment that we 
are willing to make, we are going to be willing to do it 
through, say, through the Serbian Orthodox Church or maybe 
particular projects in one area maybe through the local 
political officials, and just lay it out in a well understood 
program where people can comprehend this is really something 
spectacular, this is great, this will be great for our country.
    But I think if we do little pieces here and pieces there, 
you really do not get the full impact of what it could mean for 
the people in Serbia. I think that that is what we should be 
encouraging the Stability Pact nations to be doing. I think 
that is what we have--we have allocated what, almost $900 
million for humanitarian aid. We have got this money.
    We need to just lay it out and say, here are the things 
that we are going to do, and put the package together. We need 
the leadership to do that.
    Senator Biden. I think that is right. The only point I am 
trying to make is that the difference between Croatia and 
Tudjman, who may very well get indicted as a war criminal 
himself, and Serbia and Milosevic is that there is serious 
leverage in Croatia.
    Croatia desperately wants to become part of the EU. It also 
wants to become a member of NATO. And that is real leverage. It 
wants to be part of the West. Milosevic does not want Serbia to 
go West, young man. He is not looking for it to go West. The 
leverage we have over Milosevic, short of arresting him, is 
minimal.
    So I am not suggesting that we should not have scores of 
Western NGO's in Serbia. If tomorrow the West put together a 
package saying we are prepared to send 5,000 NGO's into Serbia 
and move them in the following circumstances to rebuild 
infrastructure and distribute humanitarian aid, I would say let 
us go to it. I cannot imagine Milosevic allowing that to 
happen.
    But I understood your earlier point to be that we should 
put together a package that demonstrates to the Serbian people 
that we are prepared to rebuild their country; but only through 
the following mechanisms, not through Belgrade and the 
Milosevic government. If that is stopped, it is because 
Milosevic stopped it.
    Is that kind of what you were saying?
    Senator Voinovich. Yes, I think specifically that is what I 
am saying, unless there is some other way of getting it done.
    Senator Biden. And by the way, I do not disagree with what 
the Senator says. You and I have been sort of talking our way 
through this on the floor, because I know of your extreme 
interest and you know of mine. You know it better than I do in 
terms of the impact on the Serbian people and the flowback from 
that over here.
    But I think that is the key. How do we get that aid in and 
have it not be the existing Socialist Party and Milosevic that 
dispenses the aid and is able to claim credit. Milosevic will 
say that the West is morally corrupt, and that it will rebuild 
Serbia because it has demonstrated its moral corruptness.
    As a new bridge goes across the Danube, he will stand there 
as he breaks a bottle of champagne over it and says: ``This is 
evidence of the fact I was right. They have acknowledged their 
moral corruptness, they have come forward.'' I do not know how 
you keep that from happening.
    Mr. Hooper. Senator, could I ask just to say a couple of 
things?
    Senator Biden. Please.
    Mr. Hooper. First, if it is not out of place to suggest so, 
you have had so much experience with the Bosnia issue. You knew 
that one. You fought it for 3 years, 4 years. You really 
pressed this Kosovo issue hard. I think you understand the 
background on Serbian democratization.
    If it is not--and I am not being coy. I really mean this. 
If you would be prepared to--you are asking all the right 
questions. Senator Voinovich is asking a lot of good questions. 
But if you would be prepared to go out yourself or go out with 
some of your colleagues to ask some of these questions and look 
into some of these, and then come back here and work the system 
back here in Washington----
    Senator Biden. That is precisely what I am about to do as 
of September the 1st.
    Mr. Hooper. Second, I think--thank you very much. I 
congratulate you. I am glad you are doing that.
    We may not--it may not be possible for NGO's to go in, but 
it certainly is possible for Serbs to come out. That is one 
way. There are other Slavic neighbors who may be more amenable, 
who may be more acceptable, Bulgaria, Slovakia, so forth. There 
is Montenegro. There are lots of ways to do this.
    In Poland, AFL-CIO got in printing presses during the 
1980's, the AFL-CIO. These things can be done.
    Senator Biden. I could not agree with you more.
    But I do not want anybody walking away with an absolute 
comparison of what happened in Slovakia or what happened in 
Bulgaria or what happened on Croatia to what is happening in 
Serbia.
    Mr. Hooper. But many of the same techniques----
    Senator Biden. But the same techniques can work.
    For me, I think all the points you mentioned have to occur. 
The best building block first and foremost is the stabilization 
of the democracies in the region.
    If you told me I could only do one thing at a time, the 
first thing I would do would be to help Montenegro and 
Macedonia, work on Croatia, and deal with Hungary. You 
surround, not to isolate, but to embolden. You surround Serbia 
with functioning democratic neighbors who have benefited 
economically from the integration and the willingness of Europe 
to participate along with us.
    I am not suggesting, Senator, you do not feed anybody in 
the meantime. I am not suggesting you let anarchy reign in 
Serbia in the meantime. We have got to arrange our priorities 
in a way that enables the very thing Mr. Fox is suggesting. 
That is, what is the best way, over the nearest timeframe, to 
establish a legitimate democratic opposition? It may find root 
in the military. It may find root in former socialists. It may 
take root in other places.
    I think that is a difficult objective. I am not saying we 
should not do it, but the one thing I do not think we should do 
is allow for the economic, humanitarian, and structural aid to 
Serbia to go through the pipeline of Belgrade, the Socialist 
Party, and Mr. Milosevic.
    Senator Voinovich. Senator, I agree with you on that. But I 
will tell you this, that if you want to get this going you 
ought to support the people that are already there. When I met 
with Staiyonov in Bulgaria, he was saying: You have got to 
understand, we want to get rid of Milosevic, but you also have 
to understand that during this period of time our economy has 
been in lockjaw. We are a new democracy. We need to get going. 
We cannot get anybody to invest in this place. Do you not 
understand that we have got to go through Serbia if we are 
going to move goods?
    When I was at the OSCE, the Hungarians saying to me: Do you 
not understand, the railroads are out, the bridges are out, the 
river cannot be used. The Ukrainians, you would think maybe 
they would not be interested, coming to me and saying: Do you 
not understand that this has had a billion dollars worth of 
negative impact on our economy?
    I met with the Greek Ambassador, who said the same thing: 
We cannot bring our goods anywhere; we have got to take them 
across the Adriatic and take them over to Italy.
    Senator Biden. One of the things that was said here earlier 
was that Milosevic has indicated that unless we rebuild the 
Danube as he wants it rebuilt, he is not going to let any ships 
go through the Danube from Hungary or anywhere else.
    Now, whether that is true or not I do not know.
    Ms. Biserko. It is, it is in the New York Times today.
    Senator Voinovich. Well, I read it in the paper. But I have 
got to say to you, if the President of the United States after 
Sarajevo and the Stability Pact nations said, we are going to 
get together as a humanitarian gesture and we are going to 
clean this river out, and we are just telling you, Mr. 
Milosevic, we are going to get it done----
    Senator Biden. I am with you.
    Senator Voinovich [continuing]. I think he is going to be 
in a pretty difficult position if he says, well, we are not 
going to let you do it unless you do it my way, because the 
people in those areas are going to say, I will be darned, we 
are going to get it done.
    Senator Biden. I would agree with you that if we attempt to 
do it and make it clear if we cannot do it it is because he 
will not let us do it, that that is a helpful thing.
    But anyway, we are keeping you all very, very late. Would 
any of you like to make any closing comment or ask us any 
questions? We will flip this around. I mean, seriously, is 
there anything you would like to add? You have been all very, 
very helpful.
    Anybody have any closing comments?
    Mr. Hooper. Can I ask if you would be willing to look in, 
while you are here in Washington, to look into just the issue 
of the money that will go to the resources for the democracy 
parties? I know you have concerns about that.
    Senator Biden. The answer is I personally, and I am sure 
the Senator already has, commit to you that I have started 
that. That is why the first question I asked was the mechanics, 
how do we do this. I am anxious to do it; the administration is 
anxious to do this. This is not something there is any 
reluctance on the part of the administration.
    I am anxious to do it and any suggestions you have would be 
appreciated.
    Mr. Hooper. Keep in touch with both IRI and NDI and check 
with them, because there really honestly is an awful lot of red 
tape. There is a blowtorch to get that money out there, but it 
is not happening because various--and I do not mean 
congressional procedures.
    Senator Biden. No, I understand.
    Mr. Hooper. That is not a problem.
    Senator Biden. I promise you that I will. If I can figure 
out what should be done to my satisfaction, I will. I have no 
reluctance to borrow a blowtorch, none.
    Mr. Fox. I have just one final comment, in addition to 
thanking you very much for this hearing and for all the 
blowtorches that you bring to these issues. We admire what you 
do very much in our sector, believe me.
    I do not want to rain on this humanitarian parade, but if 
you got $100 million in humanitarian assistance through non-
State channels, I am not sure it would bring you democracy in 
Serbia, either. If you got the kinds of resources that we have 
referred to today direct, by a variety of channels, drawing on 
different examples from the past, and you start that in the 
present, and I mean this week, next week, and really that 
serious engagement that we have seen in every other successful 
democratic change, if it does not work it would be the first 
one that did not.
    Ms. Biserko. I would like to thank you all for your time 
and dedication to help Serbian democracy. I just would like to 
make one more point clear: that Serbia maybe at this point, 
when the territorial issue is somehow closed down by having the 
protectorate in Kosovo, by having all these independent States 
around, and hopefully Montenegro out of it, that they will 
focus on what is Serbia.
    I think the main Serbian problem for all these years has 
been that they have been focused, together with the opposition, 
on the----
    Senator Biden. Good point.
    Ms. Biserko. That is why it is important to keep Kosovo and 
Montenegro out of Serbia now. We have to acknowledge what we 
are, what is our territory. This was what was lacking all the 
time. Even last week Vuk Draskovic was saying those who are 
encouraging Montenegro to go are encouraging civil war. I mean, 
none of them are really clear on this position toward 
Montenegro.
    This, I think the administration has to make a clear 
message to Belgrade that Montenegro is a serious issue, like 
Kosovo as well. Only in that case will we be able to focus on 
our own issues, on our own democracy agenda. Nobody has defined 
what is the democracy agenda of Serbia. It is not only the 
replacement of Milosevic.
    I would also add one more thing, that Serbia is set up of 
different regions which have different historical backgrounds, 
which have different political cultures, like Vojvojina, which 
was part of Austro-Hungary, which was the third richest region 
in former Yugoslavia, that has different potential. Serbia 
proper is different. I mean, it is more rural, it is more 
conservative. Now they have demonstrations. We do not know how 
it will end.
    Belgrade, politically speaking, is the most conservative 
bastion, I would say, of this unitary centralized concept. You 
have to deal with people in Belgrade, and also pushing them to 
define the democracy agenda of Serbia. One thing is to get the 
removal of Milosevic, but they have to say what is the 
transition agenda really of Serbia.
    Senator Biden. If I may be so bold, in 1993 in Belgrade I 
asked to meet with the opposition, the intellectual community, 
and the church as well. Fifty people showed up, all of whom 
professed to not be supporters of Milosevic, and talking about 
democracy. I am sure I did not get it all, but everyone I 
remember talking to talked about a greater Serbia. Everyone I 
remember talking to talked about a circumstance that did not 
bear a lot of relationship to reality, particularly the 
intellectual community, which surprised me.
    I should have known. I should have known, but I did not.
    The point I was trying to make at the outset here when I 
talked about the Republika Srpska, what you just said about 
Serbia having to come to grips with what is Serbia and who they 
are, is enhanced if the rest of the region becomes solidified, 
in the same way it would force the attention of the Republika 
Srpska.
    Once the war occurred and NATO prevailed, the road became 
much smoother. The extremes began to diminish because there was 
no realistic possibility of realizing the dream of the 
Republika Srpska and their more radical factions to unite with 
a greater Serbia. There was not much benefit in uniting with 
it. It was a non-starter.
    So I think the larger point you make about simultaneously 
making sure that we issue a clear declaration to Montenegro and 
how seriously we take it and the rest of the region is 
important. You have said more clearly what I was saying early 
on. I, for one, do not disagree with you, because I still think 
in the end that this is an incredibly rich culture. This is an 
incredibly capable people.
    It is almost the ultimate squandering of talent and 
culture, in my view. So I still have faith that if we provide 
the environment the right thing is going to be done.
    Father, you want the closing word?
    Father Dobrijevic. Yes.
    Senator Biden. You have benediction.
    Father Dobrijevic. In lieu of benediction, if you would 
kindly permit me to end with the issue of ringing of bells, 
inasmuch as you initiated your dialog with me on that subject.
    Senator Biden. Please, be my guest.
    Father Dobrijevic. I would like to reiterate today what I 
said to President Clinton once in a meeting with him, that when 
all is said and done I think that the United States of America 
and all of the allies will once again see in Serbia one of its 
greatest and most tried and true allies in that region. We have 
a record of being allied with the United States, as you well 
know, during World War I, World War II, the posthumous awarding 
of the Award of Legion to General Draza Mihailovic. And I 
believe, if I am not mistaken, that Serbia alone has the 
distinction of having a U.S. President, Woodrow Wilson, asking 
for all church bells throughout America on June 28, 1918, the 
day of the commemoration of Battle of Kosovo, to be rung at 
noon, noting the Serbs were fighting for the freedom of the 
world.
    So I thank you for allowing the Serbian Church to come here 
and I thank you for allowing bells to be heard once again, as 
they rightly should be.
    Senator Biden. Well, let us hope they are heard in both 
countries.
    Senator, any comment, closing comment?
    Senator Voinovich. Thank you very much for coming today.
    Senator Biden. I want to thank you all. I can assure you 
that this will be not the last time we will ask you for your 
input, particularly Messrs. Fox and Hooper, who have been great 
for a long time here. I again thank you all for being here. As 
my mother would say, with the grace of God and the good will of 
the neighbors, we may be able to get something done here.
    Thank you very much.
    [Whereupon, at 6:34 p.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
